<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              

                        WEDNESDAY, MAY 15, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Udall, Kirk, and Collins.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF HON. KATHERINE G. HAMMACK, ASSISTANT 
            SECRETARY OF THE ARMY, INSTALLATIONS, 
            ENERGY, AND ENVIRONMENT
ACCOMPANIED BY:
        LIEUTENANT GENERAL MICHAEL FERRITER, ASSISTANT CHIEF OF STAFF 
            FOR INSTALLATION MANAGEMENT
        BRIGADIER GENERAL WALTER E. FOUNTAIN, ACTING DEPUTY DIRECTOR, 
            ARMY NATIONAL GUARD
        ADDISON D. DAVIS, IV, COMMAND EXECUTIVE OFFICER, ARMY RESERVE 
            COMMAND

                OPENING STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Good morning. I welcome everyone to 
today's hearing to discuss the President's fiscal year 2014 
budget request for Military Construction (MILCON) and Family 
Housing for the Departments of the Army and the Air Force.
    We will have two panels of witnesses today. The first panel 
representing the Army includes Ms. Katherine Hammack, Assistant 
Secretary of the Army for Installations. She is accompanied by 
Lieutenant General Michael Ferriter, Assistant Chief of Staff 
for Installations Management; Brigadier General Walter 
Fountain, Deputy Director of the Army National Guard; and Mr. 
Addison Davis, Army Reserve Command Executive Officer.
    We welcome you all to this hearing, and we look forward to 
your testimony. The Senate has a series of votes this morning, 
scheduled to begin at 10:30. I do not want to inconvenience our 
witnesses, so I suggest that we dispense with opening 
statements and ask our witnesses to limit their opening 
remarks, so that we can get directly to questions.
    Your full statements will be placed in the record.
    Senator Kirk, is that acceptable to you?
    Senator Kirk. Yes.
    Senator Johnson. Secretary Hammack, please proceed.

             SUMMARY STATEMENT OF HON. KATHERINE G. HAMMACK

    Ms. Hammack. Thank you very much, Chairman Johnson, Ranking 
Member Kirk, and members of the subcommittee. On behalf of 
soldiers, families, and civilians of the United States Army, I 
want to thank you for the opportunity to present our fiscal 
year 2014 military construction budget.
    For fiscal year 2014, the Army requests $2.4 billion for 
Military Construction, Family Housing, and the Army's share of 
the Department of Defense (DOD) base closure account. This 
represents a 34-percent reduction from our fiscal year 2013 
MILCON request and is equitably distributed among the Active 
Army, Army National Guard, and Army Reserve.
    The $2.4 billion request includes $1.6 billion for Military 
Construction for the Active Army--or, $1.6 billion for Military 
Construction for the whole Army. And of that, $1.12 billion is 
for the Active Army, $321 million for the National Guard, and 
$174 million for the Army Reserve.
    Of the $2.4 billion, a half billion is for Army family 
housing and $180 million is for the base closure account.
    As you know, the Army is reducing its end strength and 
force structure by about 14 percent, or 80,000 soldiers. We are 
in the process of completing a force structure realignment 
analysis, which will be released next month, and announce the 
impacted brigade combat teams.
    The resulting force structure reduction to 490,000 in the 
Active Army will create excess capacity at several 
installations.
    In line with force structure reductions in Europe, the Army 
is already downsizing our infrastructure there. With a 45-
percent reduction in force structure in Europe, the Army is 
implementing a 51-percent reduction in infrastructure, a 58-
percent reduction in civilian staffing, and a 57-percent 
reduction in base operating costs.
    We are working closely with the Office of the Secretary of 
Defense to examine whether there are additional opportunities 
for consolidation in Europe through joint or multiservice 
consolidation.
    A future round of base realignment or closure, or BRAC, in 
the United States is essential to identify and reduce excess 
Army infrastructure and prudently align our civilian staffing 
with reduced uniform force structure.
    If Army force structure declines but facility overhead and 
civilian support staff remain constant, our ability to invest 
in equipment, training, and maintenance will be reduced.
    I ask for the subcommittee's continued commitment to our 
soldiers, families, and civilians in support of the Army's 
MILCON and installations programs. The Army's fiscal 2014 
installation management budget request is a program that 
supports the Army's needs while recognizing the current fiscal 
conditions.
    The Army fully supports the President's request for 
authority from Congress to conduct a BRAC round in 2015. The 
Army's strength is its soldiers, families, and Army civilians 
who support them. They are and will continue to be the 
centerpiece for the Army.

                           PREPARED STATEMENT

    Thank you for your attention. I look forward to your 
questions, as do the other panelists here representing the 
Active Army, the Army Reserve, and the Army National Guard.
    [The statement follows:]
  Prepared Statement of Hon. Katherine G. Hammack, Lieutenant General 
Michael Ferriter, Brigadier General Walter E. Fountain, and Addison D. 
                               Davis, IV
                              introduction
    Chairman Johnson, Ranking Member Kirk, and members of the 
subcommittee, on behalf of the soldiers, families, and civilians of the 
United States Army, I want to thank you for the opportunity to present 
the Army's fiscal year 2014 Military Construction (MILCON) and Family 
Housing budget request.
    The Army's fiscal year 2014 MILCON budget request supports the 
Chief of Staff of the Army (CSA) priority of developing the force of 
the future, Army 2020 as part of the Joint Force 2020--a versatile mix 
of capabilities, formations, and equipment. Within the current fiscal 
climate, the Army Installation Management Community is focusing its 
resources to sustain, restore, and modernize facilities to support the 
CSA's Army Facility Strategy 2020 and Facility Investment Strategy 
priorities. The Installation Management Community is focused on 
providing the facilities necessary to enable the world's best trained 
and ready land force of the future.
    We ask for the subcommittee's continued commitment to our soldiers, 
families, and civilians and support of the Army's MILCON and 
installations programs. The Army's strength is its soldiers and the 
families and Army civilians who support them. They are and will 
continue to be the centerpiece of our Army. America's Army is the 
strength of the Nation.
                                overview
    The Army's fiscal year 2014 President's budget requests $2.35 
billion for MILCON, Army Family Housing (AFH), and the Army's share of 
the Department of Defense Base Closure Account (BCA). The request 
represents 1.8 percent of the total Army budget and a 34-percent 
reduction from the fiscal year 2013 request. The $2.35 billion request 
includes $1.12 billion for the Active Army, $321 million for the Army 
National Guard, $174 million for the Army Reserve, $557 million for 
AFH, and $180 million for Base Realignment and Closure (BRAC) to 
address environmental and caretaker requirements at previously closed 
BRAC sites. In addition and in support of Army installations and 
facilities, the President's budget request includes $1.7 billion for 
installation energy, $789 million for environmental programs, $3.8 
billion for Facilities Sustainment/Restoration and Modernization 
(FSRM), and $8.9 billion for Base Operations Support (BOS).
    The budget request reflects a return to pre-fiscal year 2000 
spending levels for the MILCON accounts. From fiscal year 2001 through 
fiscal year 2011, the MILCON program grew rapidly to support the 
changes required of the Army at that time. The Army supported combat 
operations in two theaters, increasing end strength, the Global Defense 
Posture Realignment (GDPR), the operationalization of the Reserve 
components, and transformation of the Army infrastructure through Base 
Realignment and Closure (BRAC) 2005. With the fiscal reality that we 
are facing as a Nation, in addition to the reductions of the Budget 
Control Act of 2011, the Army closely reviewed its facility investments 
necessary to support the force with versatile facility capabilities. 
This MILCON budget request reflects the necessary focused investments 
in training, maintenance, and operations to enable the future force of 
the All-Volunteer Army of 2020 in a constrained fiscal environment.
                       army 2020 force structure
    The Army is in the process of reducing its end strength and force 
structure. We are steadily consolidating and reducing our overseas 
force structure. In fiscal year 2013, the Army announced that two 
brigades in Europe would be deactivated, and that V Corps would not be 
returning to Europe upon the completion of its deployment to 
Afghanistan. In coordination with the Office of the Secretary of 
Defense, the Army is examining cost-effective opportunities to 
facilitate joint and/or multi-service infrastructure consolidation at 
our overseas installations, with a specific focus in Europe.
    On January 19, 2013, the Army published a Programmatic 
Environmental Assessment (PEA), which was prepared in accordance with 
the National Environmental Policy Act (NEPA). The PEA analyzes the 
environmental and socioeconomic impacts associated with two alternative 
approaches to reducing our force structure. In the PEA, the Army set a 
``stop loss'' threshold so that no multi-Brigade Combat Team (BCT) 
installation would lose more than two BCTs, or 8,000 total military and 
civilian employee personnel, under the worst case scenario.
    The force structure reduction is likely to create excess capacity 
at several installations. If an installation's assigned military forces 
are reduced significantly, it logically follows that some number of 
civilian personnel functions may no longer be required to support our 
soldiers and families. The Army has not yet initiated any capacity 
analysis to determine the level of excess infrastructure.
    In line with the Budget Control Act of 2011 and the new defense 
strategy announced in January 2012, the fiscal year 2013 budget 
significantly reduced the Army's future funding projections. Along with 
the end of the wars in Iraq and Afghanistan, these changes have put the 
Army on a path to shrink its Active Duty end strength from its peak of 
570,000 in fiscal year 2010, to 490,000 by fiscal year 2017. This is a 
reduction of 80,000 soldiers, or approximately 14 percent, from the 
Active component. As former Defense Secretary Leon Panetta stated about 
force reductions, ``you can't have a huge infrastructure supporting a 
reduced force.'' These reductions will affect every installation in the 
Army. Further, these reductions are already programmed into the Army 
budget baseline.
    Additional cuts to the Army's budget, of the magnitude associated 
with sequestration, may drive our Active component end strength down 
below 490,000. If the Army is forced to take additional cuts due to the 
reduction in the outyear discretionary caps, we would need to reduce 
further the number of soldiers out of the Active component, National 
Guard, and U.S. Army Reserve. This would create even greater pressure 
to bring infrastructure and civilian staffing into proper alignment 
with force structure demands.
                  base realignment and closure (brac)
    If Army force structure declines, but the facility overhead and 
civilian support staff remain constant, then our investments in 
equipment, training, and maintenance will become distorted.
    The supporting infrastructure, as well as the civilian positions at 
our installations, should be reviewed to determine whether they are in 
line with reductions in end strength and force structure. The 
alternative is an installations budget that spends tens or even 
hundreds of millions of dollars to maintain unused facilities. This 
scenario would divert the Army's shrinking resources away from much 
needed investments in readiness, equipment, and training. Failure to 
properly resource programs supporting Army families and soldier 
readiness will lead to an all-volunteer military that is hollowed out 
and weakened.
    At our installations, excess infrastructure, if unaddressed, will 
force the Army to spread its remaining resources so thinly that the 
ability of our installation services to support the force will suffer. 
We will have more buildings in our inventory that require maintenance 
than we have force structure to validate a requirement. Eventually, 
excess infrastructure and staff overhead will increase the risk of 
either spending a disproportionate share of scarce budget resources on 
sustainment, or not being able to perform the most basic services 
correctly. For instance, Army civilian and contractor staff that run 
our digitized training ranges could be spread so thinly that the 
scheduling and throughput of training events at home station could 
suffer. As these negative effects accumulate, the remaining soldiers 
and families will be more likely to vote with their feet and leave the 
Army in an unplanned manner.
    Four of the prior rounds of BRAC were implemented as the cold war 
was winding down and the Army's force structure was rapidly declining. 
The combined 1988, 1991, 1993, and 1995 rounds (i.e., ``prior BRAC'') 
produced 21 major base closures, 27 significant realignments, $5 
billion in implementation costs, with over $3 billion in one-time 
savings, and almost $1 billion in annual reoccurring savings. Among 
them was the closure of Fort Ord, California. Fort Ord was the first 
and only divisional post closed under BRAC, which reflected the Army's 
reduction of its Active component strength from 12 to 10 divisions.
    BRAC 2005 generated $4.8 billion in one-time savings and provides 
over $1 billion in net annual recurring savings for the Army. These 
savings were generated with an implementation period investment of 
about $18 billion. The Army accounted for BRAC savings when developing 
its fiscal year 2007 and subsequent budget requests. This downward 
budget adjustment was beneficial to the installation program overall; 
it resulted in real savings.
    We are requesting authority from Congress to conduct a BRAC round 
in 2015.
                      army 2020 facility strategy
    As we shape the Army of 2020 through a series of strategic choices 
over the coming months and years, the Installation Management Community 
looks to implement its Army Facility Strategy 2020 (AFS 2020) to 
provide quality, energy-efficient facilities in support of the Force 
and the CSA priorities.
    AFS 2020 provides a strategic framework that synchronizes the Army 
Campaign Plan, the Total Army Analysis, and Army Leadership priorities 
in determining the appropriate funding to apply in the capital 
investment of Army facilities at Army installations and joint service 
bases across the country. AFS 2020 is a cost-effective and efficient 
approach to facility investments that reduces unneeded footprint, saves 
energy by preserving and encouraging more efficient facilities, 
consolidates functions for efficient space utilization, demolishes 
failing buildings, and uses appropriate excess facilities as lease 
alternatives in support of the Army of 2020.
    AFS 2020 incorporates a Facility Investment Strategy (FIS) that 
contains four components executed with MILCON and/or Operations and 
Maintenance (O&M) funding. FIS includes sustaining/maintaining required 
facilities; disposing of identified excess facilities by 2020; 
improving existing facility quality; and building out critical facility 
shortfalls to include combat aviation brigades, initial entry training 
barracks, maintenance facilities, ranges, and training facilities.
      fiscal year 2014 budget request--military construction, army
    The fiscal year 2014 Military Construction, Army (MCA) budget 
requests an authorization of $978 million and appropriations for $1,120 
million. The difference between the authorization and the 
appropriations requests is the $42 million to fund the second increment 
of the Cadet Barracks at the United States Military Academy and $99.6 
million for Planning and Design (P&D), Unspecified Minor Military 
Construction (UMMC), and host nation support. The cadet barracks was 
fully authorized in the fiscal year 2013 National Defense Authorization 
Act (NDAA). This MCA budget request supports the MILCON categories of 
Barracks, Modularity, Redeployment/Force Structure, Revitalization, and 
Ranges and Training Facilities.
    Barracks ($239 Million/21 Percent).--The fiscal year 2014 budget 
request will provide for 1,800 new initial entry training barracks 
spaces at three installations replacing current housing in relocatable 
and temporary buildings. The locations of these replacement projects 
are: Fort Gordon, Georgia; Fort Leonard Wood, Missouri; and Joint Base 
Langley-Eustis, Virginia. The final project in this category is $42 
million for the second increment of the Cadet Barracks at the United 
States Military Academy, which was fully authorized in fiscal year 
2013.
    Modularity ($322 Million/29 Percent).--The Army will invest $247 
million at Joint Base Lewis McChord, Washington, and Fort Wainwright, 
Alaska, to construct facilities for the 16th Combat Aviation Brigade 
(CAB). These facilities provide critical Army aviation combat 
capability and Joint Force support and include aviation battalion 
complexes, an airfield operations complex, and an aircraft maintenance 
and aircraft storage hangars. The Army will construct a $75 million 
command and control facility at Fort Shafter, Hawaii, for United States 
Army Pacific.
    Redeployment/Force Structure ($337 Million/30 Percent).--The Army 
will invest $242.2 million for seven facilities to support the 13th CAB 
at Fort Carson, Colorado. The facilities include two aircraft 
maintenance hangars, a runway, a headquarters building, simulator 
buildings, a fire station, and a central energy plant. Fort Bliss, 
Texas, will receive $36 million to construct a complex to support the 
activation of a Gray Eagle Company (Unmanned Aerial System) in support 
of the 1st Armor Division headquarters. A $4.8 million battlefield 
weather facility will support the airfield operations of the CABs at 
Fort Campbell, Kentucky. The Army will construct a company operations 
complex and an operations and maintenance facility for a total of $54 
million at unspecified worldwide locations as directed by the 
Department of Defense (DOD).
    Revitalization ($86.8 Million/8 Percent).--As part of the facility 
investment strategy of AFS 2020, the Army will invest in five projects 
to correct significant facility deficiencies or facility shortfalls to 
meet the requirements of the units and/or organization mission 
requirements. Projects included are the $63 million pier replacement 
and modernization at Kwajalein Atoll, a $2.5 million entry control 
building and a $4.6 million hazardous material storage facility for the 
National Interagency Bio-defense Campus at Fort Detrick, Maryland; a 
$5.9 million command and control operations facility at Fort Bragg, 
North Carolina, and a $10.8 million air traffic control tower at Biggs 
Army Airfield, Fort Bliss, Texas.
    Ranges and Training Facilities ($35.5 Million/3 Percent).--The 
fiscal year 2014 budget request includes $35.5 million to construct 
ranges and simulation training facilities to maintain readiness of 
units and soldiers. The program will provide for a $17 million regional 
simulation center at Fort Leavenworth, Kansas, and a $4.7 million 
weapons simulation center in support of enlisted initial entry 
training, and officer and non-commissioned officer career courses at 
Fort Leonard Wood, Missouri. The Army will construct a $4.7 million 
automated sniper field fire range for special operations forces 
training at Eglin Air Force Base, Florida, and a $9.1 million multi-
purpose machine gun range at Yakima Firing Center, Washington, in 
support of Active and Reserve component unit training in the area.
    Other Support Programs ($99.6 Million/9 Percent).--The fiscal year 
2014 budget request includes $41.6 million for planning and design of 
MCA projects and $33 million for the oversight of design and 
construction of projects funded by host nations. As executive agent, 
the Army provides oversight of host nation funded construction in 
Japan, Korea, and Europe for all facilities sustainments. The fiscal 
year 2014 budget also requests $25 million for unspecified minor 
construction.
               military construction, army national guard
    The fiscal year 2014 Military Construction, National Guard (MCNG) 
budget requests an authorization of and an appropriation for 
$320,815,000. The MCNG program is focused on the MILCON categories of 
Modularity, Revitalization, and Ranges and Training Facilities.
    Modularity ($121 Million/37 Percent).--The fiscal year 2014 budget 
request is comprised of seven projects, which include five readiness 
centers/armed forces reserve centers in Illinois, Minnesota, 
Mississippi, New York, and South Carolina. This request also includes 
one vehicle maintenance shop in South Carolina, and one Army aviation 
support facility in Illinois.
    Revitalization ($138 Million/43 Percent).--The Army National Guard 
budget funds 12 projects to replace failing and inefficient facilities. 
There is a maneuver area training and equipment site in the 
Commonwealth of Puerto Rico, readiness centers in Alabama and Wyoming, 
an armed forces reserve center in Texas, enlisted transient training 
barracks in Michigan and Massachusetts, a vehicle maintenance shop and 
aircraft maintenance hangar in Missouri, a civil support team ready 
building in Florida, an aviation training/maintenance facility in 
Pennsylvania, and two water utilities projects in Mississippi and Ohio. 
These projects will provide modernized facilities and infrastructure to 
enhance the Guard's operational readiness.
    Ranges and Training Facilities ($21 Million/7 Percent).--The fiscal 
year 2014 budget request includes a scout reconnaissance range gunnery 
complex in Fort Chaffee, Arkansas.
    Other Support Programs ($41.2 Million/13 Percent).--The fiscal year 
2014 Army National Guard budget request includes $29 million for 
Planning and Design of Future Projects and $12.2 million for 
Unspecified Minor Military Construction.
                  military construction, army reserve
    The fiscal year 2014 Military Construction, Army Reserve (MCAR) 
budget requests an authorization of $158,100,000 and an appropriation 
for $174,060,000. The MCAR program is focused on the MILCON categories 
of Revitalization and Ranges and Training Facilities. The difference 
between the authorization and appropriation requests funds P&D and 
UMMC.
    Revitalization ($143.2 Million/82 Percent).--The fiscal year 2014 
Army Reserve budget request includes nine projects that build out 
critical facility shortages and consolidate multiple failing and 
inefficient facilities with new operations and energy-efficient 
facilities. The Army Reserve will construct four new Reserve centers in 
California, Maryland, North Carolina, and New York that will provide 
modern training classrooms, simulations capabilities, and maintenance 
platforms that support the Army force generation cycle and the ability 
of the Army Reserve to provide trained and ready soldiers for Army 
missions when called. The request includes a new access control point/
mail/freight center and NCO Academy dining facility at Fort McCoy, 
Wisconsin. At Joint Base McGuire-Dix-Lakehurst, New Jersey, the Army 
Reserve will construct a consolidated dining facility and central issue 
facility and eliminate four failing, Korean War era, buildings. Lastly, 
the request will provide a modern total Army school system training 
center at Fort Hunter-Liggett, California, in support of all Army units 
and soldiers.
    Ranges and Training Facilities ($15 Million/9 Percent).--The budget 
request includes two ranges that will build out a shortage of 
automated, multipurpose machinegun ranges and modified record fire 
ranges at Joint Base McGuire-Dix-Lakehurst, New Jersey. The ranges will 
enable Active and Reserve component soldiers in the northeastern part 
of the country to hone their combat skills.
    Other Support Programs ($16 Million/9 Percent).--The fiscal year 
2014 Army Reserve budget request includes $14.2 million for Planning 
and Design of Future Year Projects and $1.7 million for Unspecified 
Minor Military Construction.
             family housing operation and maintenance, army
    The fiscal year 2014 budget request includes $512.8 million to 
support the Army's Military Family Housing in the following areas: 
operations, utilities, maintenance, and repair; leased family housing; 
and oversight management of privatized housing. This request funds over 
16,000 Army-owned homes in the United States and overseas, almost 6,500 
leased residences worldwide, and Government oversight of more than 
86,000 privatized homes.
    Operations ($101.7 Million).--The Operations account includes four 
subaccounts: management, services, furnishings, and a small 
miscellaneous account. All operations subaccounts are considered ``must 
pay accounts'' based on actual bills that must be paid to manage and 
operate the AFH-owned inventory. Within the management subaccount, 
Installations Housing Service Offices provide referral services for 
off-post housing for 67 percent of the Army families that reside in the 
local communities.
    Utilities ($96.9 Million).--The Utilities account includes the cost 
of delivering heat, air conditioning, electricity, water, and 
wastewater support for owned or leased (not privatized) family housing 
units.
    Maintenance and Repair ($107.6 Million).--The Maintenance and 
Repair account supports annual recurring projects to maintain and 
revitalize AFH real property assets. This funding ensures that we 
appropriately maintain the 16,000 Army-owned housing facilities so that 
we do not adversely impact soldier and family quality of life.
    Leasing ($180.9 Million).--The Army Leasing program is another way 
to provide soldiers and their families with adequate housing. The 
fiscal year 2014 budget request includes funding for 1,369 temporary 
domestic leases in the United States, and 5,064 leased units overseas. 
The overseas leases include support for NATO housing in Belgium and 
SOCOM housing in the Dominican Republic, Jamaica, Colombia, and Miami.
    Privatization ($25.7 Million).--The Privatization account provides 
operating funds for portfolio and asset management and strategic 
oversight of privatized military family housing and it pays for 
civilian pay at 44 locations; travel; contracts for environmental and 
real estate functions, training, and real estate development and 
financial consultant services. The need to provide oversight over the 
privatization program and projects is reinforced in the fiscal year 
2013 NDAA which requires more oversight to monitor compliance, reviews 
and reporting performance of the overall privatized housing portfolio 
and individual projects.
    In 1999, the Army began privatizing family housing assets under the 
Residential Communities Initiative (RCI). The RCI program continues to 
provide quality housing that soldiers and their families and senior 
single soldiers can proudly call home. All scheduled installations have 
been privatized through RCI. RCI has met its goal to eliminate those 
houses originally identified as inadequate and built new homes where 
deficits existed. RCI family housing is at 44 locations and is 
projected to eventually represent 98 percent of the on-post family 
housing inventory inside the United States. Initial construction and 
renovation investment at these 44 installations is estimated at $13.2 
billion over a 3- to 14-year initial development period (IDP), which 
includes an Army contribution of close to $2 billion. All IDP's are 
scheduled to be completed by 2018. After all IDP's are completed, the 
RCI program is projecting approximately $34 billion in development 
throughout the 44 locations for the next 40 to 50 years. From 1999 
through 2012, our partners have constructed 29,173 new homes, and 
renovated another 24,641 homes.
                   family housing construction, army
    The Army's fiscal year 2014 Family Housing Construction request is 
for $39.6 million for new construction and $4.4 million for planning 
and design. The Army will construct 56 single family homes at Fort 
McCoy, Wisconsin, to support the senior officer and senior non-
commissioned officer and families stationed there. Additionally, the 
Army will construct 29 townhouse style quarters in Grafenwoehr at 
Vilseck, Germany, as part of the consolidation and closure of the 
Bamberg and Schweinfurt garrisons.
                       base closure account (bca)
    BRAC property conveyance remains an Army priority. Putting excess 
property back into productive re-use, which can facilitate job 
creation, has never been more important than it is today.
    The fiscal year 2013 NDAA consolidated BRAC Legacy and BRAC 2005 
accounts into a single DOD Base Closure Account (BCA). The Army's 
portion of the fiscal year 2014 budget request is for $180,401,000. The 
request includes $50.6 million for caretaker operations and program 
management of remaining properties, and $129.8 million for 
environmental restoration efforts. In fiscal year 2014, the Army will 
continue environmental cleanup, and disposal of BRAC properties. The 
funds requested are needed to keep planned cleanup efforts on track, 
particularly at prior-BRAC installations including Fort Ord, 
California, Fort McClellan, Alabama, Fort Wingate, New Mexico, Fort 
Devens, Massachusetts, and Savanna Army Depot, Illinois. Additionally, 
funds requested support environmental restoration projects at several 
BRAC 2005 installations such as Lone Star Army Ammunition Plant, Texas, 
Kansas Army Ammunition Plant, Kansas, and Umatilla Chemical Depot, 
Oregon. Completing environmental remediation is critical to 
transferring property back into productive re-use and job creation.
    In total, the Army has conveyed almost 219,000 acres (78 percent of 
the total BRAC acreage disposal requirement of 279,000 acres), with 
approximately 61,000 acres remaining. The current goal is for all 
remaining excess property (22 percent) to be conveyed by 2021. Placing 
this property into productive reuse helps communities rebuild the local 
tax base, generate revenue, and replace lost jobs.
                                 energy
    The Army is moving forward to address the challenge of Energy and 
Sustainability on our installations. In fiscal year 2014, the 
Installation Energy budget totals $1.719 billion and includes $43 
million from the DOD Defense-wide MILCON appropriation for the Energy 
Conservation Investment Program (ECIP), $344 million for Energy 
Program/Utilities Modernization program, $1,332 million for Utilities 
Services, and $5.0 million for installation-related Science and 
Technology research and development. The Army conducts financial 
reviews, business case and lifecycle cost analysis, and return on 
investment evaluations for all energy initiatives.
    ECIP ($43 Million).--The Army invests in energy efficiency, on-site 
small-scale energy production, and grid security through the DOD's 
appropriation for ECIP. In fiscal year 2014, the DOD began conducting a 
project-by-project competition to determine ECIP funding distribution 
to the services. The Army received $43 million for 11 projects to 
include 6 energy conservation projects, 4 renewable energy projects, 
and 1 energy security project.
    Energy Program/Utilities Modernization ($344 Million).--Reducing 
consumption and increasing energy efficiency are among the most cost-
effective ways to improve installation energy security. The Army funds 
many of its energy efficiency improvements through the Energy Program/
Utilities Modernization program account. Included in this total are 
funds for energy efficiency projects, the development and construction 
of renewable energy projects through the Energy Initiatives Task Force, 
the Army's metering program, modernization of the Army's utilities, 
energy security projects and planning and studies.
    Utilities Services ($1,332 Million).--The Utilities Services 
account pays all Army utility bills including the repayment of 
Utilities Privatization (UP), Energy Savings Performance Contracts 
(ESPCs), and Utilities Energy Service Contracts (UESCs). Through the 
authority granted by Congress, ESPCs and UESCs allow the Army to 
implement energy efficiency improvements through the use of private 
capital, repaying the contractor for capital investments over a number 
of years out of the energy cost savings. The Army has the most robust 
ESPC program in entire Federal Government. The ESPC program has more 
than 170 task orders at over 70 installations representing $1.16 
billion in private sector investments and over 350 UESC task orders at 
43 installations, representing $543 million in utility sector 
investments. We have additional ESPC projects in development, totaling 
over $400 million in private investment and $100 million in development 
for new UESCs. In fiscal year 2012, the Army executed more ESPCs and 
UESCs in one fiscal year than any other year in the entire history of 
program ($236 million).
    Installation Science and Technology Research and Development ($5.0 
Million).--Installation Science and Technology programs investigate and 
evaluate technologies and techniques to ensure sustainable, cost-
efficient and effective facilities to achieve resilient and sustainable 
installation and base operations. Facility enhancement technologies 
contribute to cost reductions in the Army facility lifecycle process 
and the supporting installation operations.
                              environment
    The Army's fiscal year 2014 Operations and Maintenance budget 
provides $788,868,000 for its Environmental Program in support of 
current and future readiness. This budget ensures an adequate 
environmental resource base to support mission requirements, while 
maintaining a sound environmental compliance posture. Additionally, it 
allows the Army to execute environmental aspects of re-stationing while 
increasing programmatic efficiencies and addressing the Army's past 
environmental legacy.
    As a land-based force, our compliance and stewardship sustains the 
quality of our land and environment as an integral component of our 
capacity to train for combat effectively. We are committed to meeting 
our legal requirements to protect natural and cultural resources and 
maintain air and water quality during a time of unprecedented change. 
We are on target to meet DOD goals for cleaning up sites on our 
installations (90 percent of non-BRAC sites will be at response 
complete in fiscal year 2018 and 95 percent by fiscal year 2021), and 
we continue to fulfill environmental compliance requirements despite 
operating in a constrained resource environment.
       facility sustainment, restoration and modernization (fsrm)
    This year's Facility Sustainment, Restoration and Modernization 
(FSRM) funding is $3,760,996,000. This request includes $3,082 million 
for Sustainment (80 percent of the OSD FSM requirement, for all Army 
components), $36 million for demolition, and $643 million for 
Restoration and Modernization. The Army views 80 percent sustainment 
funding as a necessary adjustment due to the economic impacts and the 
requirements of the fiscal year 2011 Budget Control Act. FSRM funding 
is an integral part of the Facility Investment Strategy (FIS) proponent 
of AFS 2020. The Army is taking a slight risk in the sustainment of our 
facility inventory valued at $312 billion. In keeping with the FIS, the 
Army has increased its investment in facility restoration through the 
O&M-R&M account. This will fully restore trainee barracks, enable 
progress toward energy objectives, and provide commanders with the 
means of restoring other critical facilities. Facilities are an outward 
and visible sign of the Army's commitment to providing a quality of 
life for our soldiers, families, and civilians that is consistent with 
their commitment to our Nation's security.
                     base operations support (bos)
    The Army's fiscal year 2014 Base Operations Support (BOS) request 
is $8,867,014,000, which is a slight decrease from the fiscal year 2013 
request. The Army's fiscal year 2014 BOS strategy continues to 
prioritize funding for Life, Health, and Safety programs and Army Force 
Generation (ARFORGEN) requirements ensuring soldiers are trained and 
equipped to meet demands of our Nation at war. The Army remains 
committed to its investment in Army Family Programs and continues to 
evaluate its services portfolio in order to maintain relevance and 
effectiveness. The Army will meet the challenge of day-to-day 
requirements by developing efficient service delivery or adjusting 
service levels while managing customer expectations. These efforts will 
encourage program proponents to evaluate policies, seek alternatives, 
and find innovative solutions to meet these challenges. The Army is 
committed to developing a cost culture for increasing the capabilities 
of BOS programs through an enterprise approach. Additionally, the Army 
will continue to review service delivery of its soldier, family, and 
civilian programs to ensure the most efficient and effective means of 
delivery are realized.
                               conclusion
    The Army's fiscal year 2014 installations management budget request 
is a program that assists the Army as it transitions from combat. It 
provides for our soldiers, families, and civilians, while recognizing 
the current fiscal conditions. The Army requests the support of the 
subcommittee and the Congress in its effort to implement the Army 
Facility Strategy 2020 and facilities investment strategy. These 
combined efforts will set the foundation for the sustainment, 
restoration and modernization of the facilities necessary to enable the 
future Army of 2020, a joint force with a versatile mix of 
capabilities.
    The planned reduction of 14 percent of the Active Army's end 
strength to 490,000 by the end of fiscal year 2017 will create excess 
U.S.-based installation infrastructure. Since 2005, as we reduced 
installations overseas, many units relocated back to the United States. 
For example, Forts Benning, Bliss, Bragg, Carson, Knox, and Riley 
received approximately 7 million square feet of additional 
infrastructure to host and support these units returning home from 
overseas. The additional capacity here at home was important because it 
helped the Army transform from a division-based force into modular 
brigade combat teams.
    With sequestration triggered, we face additional and significant 
reductions in the annual funding caps limiting defense budgets for the 
next 9 years; these reductions would cause reductions in military and 
civilian end strength. A future round of base realignment and closure 
(BRAC) is essential to identify excess Army infrastructure and 
prudently align civilian staffing and infrastructure with reduced force 
structure and reduced industrial base demand. BRAC allows for a 
systematic review of existing DOD installations to ensure effective 
joint and multi-service component utilization. If we do not make the 
tough decisions necessary to identify efficiencies and eliminate unused 
facilities, we will divert scarce resources away from training, 
readiness, and family programs and the quality of our installation 
services will suffer. We are requesting authority from Congress to 
conduct a BRAC round in 2015.
    In closing, I would like to thank you again for the opportunity to 
appear before you today and request your commitment to the Army's 
program and the future of our soldiers, families, and civilians.

    Senator Johnson. Thank you, Secretary Hammack.
    For the information of Senators, we will limit questions to 
5-minute rounds, and I ask my colleagues to be mindful of that 
limit so that everyone has a chance to participate. You may, of 
course, submit questions for the record.
    We will use the early bird rule, and I will recognize 
members from alternating sides in the order in which they 
arrive.
    Secretary Hammack, the Army is currently conducting a force 
structure initiative called the Total Army Analysis review, or 
TAA, to look at how to best draw down from 570,000 soldiers in 
2010 to 490,000 in fiscal year 2017.
    At the same time, the Army is also involved in two basing 
initiatives, OSD's European basing study that will outline a 
master plan for an enduring force lay-down in Europe and a 
proposed 2015 BRAC round to close bases in the United States.
    What steps is the Army taking to coordinate these different 
reviews and plans? And how can this subcommittee be assured 
that recommendations from the TAA will support the European 
basing study or the recommendations of a future BRAC 
commission?

                            ARMY INITIATIVES

    Ms. Hammack. These initiatives are very well coordinated 
together. Currently, the force structure that will be 
announced, as you said, is a reduction of 80,000. We have 
already announced the force structure reductions coming out of 
Europe to brigade combat teams, so we know what our force 
structure is planned for Europe.
    In the United States, it's at least eight brigade combat 
teams and maybe more with impacts of sequestration.
    When we put together our fiscal year 2014 MILCON budget, we 
took into account the potential impacts of force reductions at 
our bases that have significant numbers of soldiers. And so you 
do not see us investing in brigade combat team headquarters; 
you do not see us investing in permanent party barracks. We're 
investing in training ranges; we're investing in training 
barracks; and we're investing in infrastructure improvements or 
fixes that do not require or will not be impacted by stationing 
moves.

                     EUROPEAN MILITARY CONSTRUCTION

    Senator Johnson. The budget request includes funding for 
several Army projects and for a number of DOD schools at U.S. 
Army bases in Germany.
    If everything is on the table, why should Congress invest 
in MILCON in Europe until the basing reviews are completed? And 
if certain installations are not on the table, can you identify 
those for us?
    Ms. Hammack. I believe that the OSD budget has plans for 
Department of Defense Education Activity (DODEA) schools. 
That's not in the Army budget. The Army budget is Army family 
housing in locations that will be enduring.
    There is coordination on schools. And as part of the 
European infrastructure consolidation analysis, we are looking 
at the entire educational system in Europe.
    The other thing to be aware of is the DODEA schools do 
support Federal agencies beyond just the military that are 
stationed in Europe.
    Senator Johnson. For U.S. bases, the first part of TAA, an 
environmental assessment, was recently completed. The 
assessment focused on brigade combat teams and their size, 
composition, and location.
    I understand that the Army is now entering the next phase 
of the process, where it will begin to look at possible 
stationing decisions.

                       TOTAL ARMY ANALYSIS (TAA)

    Secretary Hammack, when do you expect to complete the TAA, 
and will its findings be incorporated into the fiscal year 2015 
budget submission?
    Ms. Hammack. The fiscal year 2015 budget will be impacted 
by the TAA, and we are looking very closely what projects to 
add in that had been postponed and what projects would be 
removed from the Future Years Defense Plan (FYDP).
    The Secretary of the Army and the Chief of Staff of the 
Army announced that the TAA would become final in June. And I 
do not know an exact date at this point in time.
    Senator Johnson. Senator Kirk.
    Senator Kirk. Thank you, Mr. Chairman. I'll try to be 
pretty quick with your guidelines.
    I'd like to focus on Pacific lay-down, like the President 
has been focusing on. I want to make sure our plans to harden 
Army facilities in PACOM, I understand we have about $153 
million in hardening plans coming up.
    Because of the potential of a Korean scenario, the B-2 
deployment to Andersen in Guam concerns me, to make sure that 
that asset is preserved, that we have that around.
    My only real question is that the hardening study be in 
line with the PACOM, the combatant commander's wishes. I put in 
a request to see him whenever he gets in, to make sure that's 
also in line with PACAF and what they're looking at.
    Ms. Hammack. Sir, it's my understanding that that is 
something that the Air Force is looking at, in conjunction with 
the Navy on Guam. Currently, there are no Army equities there.
    Senator Kirk. Thank you.
    Senator Johnson. Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman.
    And thank you for being here and thank you for your 
service.

                       WHITE SANDS MISSILE RANGE

    I asked this question last week and was not able to get a 
clear answer on it, so I'm hoping you can clarify about the 
status of appropriated funds for White Sands Missile Range.
    The Congress appropriated military construction funds for 
barracks at White Sands Missile Range for fiscal year 2011, as 
I mentioned last week. To date, we have only heard excuse after 
excuse of why this project has not broken ground.
    Our soldiers at White Sands Missile Range deserve better, 
and I believe it is about time that DOD and the Army carried 
out this appropriation. What can you tell me about the status 
of the barracks and when will we be able to see this project 
get started at White Sands Missile Range?
    Ms. Hammack. Sir, the project you're talking about is a $29 
million project for about 300 barracks spaces. My office put 
that project on hold pending the stationing actions, which will 
be announced next month.
    We do not want to build excess capacity should stationing 
actions not require that facility.
    Also at White Sands Missile Range, my understanding is the 
barracks occupancy currently is at 79 percent. That was as of 
January 1 of this year. Because there is barracks capacity 
currently at White Sands Missile Range with the stationing 
actions, the project will continue to be on hold until 
stationing actions indicate that there is a need for those 
barracks.
    Senator Udall. When do you expect that to happen?
    Ms. Hammack. By the end of next month.
    Senator Udall. So at the end of next month, that's when 
you'll have a clearer picture as to whether to move forward or 
not?
    Ms. Hammack. Yes, sir.
    Senator Udall. Yes, okay. Thank you.
    White Sands Missile Range is home to one of the largest 
solar photovoltaic systems in the country, and I want to thank 
you for your leadership to make this a reality.
    The solar array will supply about 10 percent of the energy 
for White Sands Missile Range and reduce carbon emissions by 
7,400 tons per year. This is an important step toward making 
our bases more energy independent, which I believe is a really 
important national security issue.
    Could you talk about future plans for alternative energy 
and the other programs that are in the works for White Sands, 
Fort Bliss, and other military installations, and what type of 
support you need from Congress to make these programs a 
reality?

                            ENERGY SECURITY

    Ms. Hammack. One of the initiatives we have is to improve 
energy security. We have seen between fiscal years 2011 and 
2012 a fourfold increase in the number of power disruptions on 
our bases. That means that we are required to provide more 
generation on our bases so that we can continue our mission.
    Renewable energy like that at White Sands helps us continue 
our mission with that energy security. What we are doing at 
White Sands, we are looking at Fort Bliss and other bases, and 
that is to leverage public-private partnerships, so that we do 
not have to come to Congress to ask for the money to invest in 
renewable energy, but we depend upon the private sector to 
install it, to operate and maintain it. We buy energy from them 
at a market or lower-than-market price.
    That helps give us stability in our energy budgets. That 
also helps with the energy security and mission effectiveness.
    Senator Udall. Thank you.
    And we very much appreciate your efforts to move toward 
these alternative forms of energy and put the military in a 
position of energy independence, which you know has a big 
impact on national security.
    I know I only have another minute. I wanted to raise the 
issue of the F-16 beddown at Holloman Air Force Base, so let me 
just cut quickly to that.
    I mean, how closely is the Army working with the Air Force 
to help de-conflict scheduling issues and airspace coordination 
to support the F-16 training mission at Holloman? And do you 
believe White Sands has the facilities and personnel it needs 
to manage this change in the mission in the range's airspace 
and at Holloman Air Force Base?
    Ms. Hammack. Currently, sequestration is affecting all of 
us. And the Secretary of Defense announced that there will be 
11 furlough days for members of the Department of Defense. That 
is affecting all of our testing missions at White Sands Missile 
Range. It's also affecting the availability of de-conflicting 
testing missions with airspace for Holloman.
    It is a challenge, and it will remain a challenge through 
the summer as we have civilians on shortened work hours. We're 
not allowed to work any overtime. We're not allowed to work any 
weekends. And they're allowed to only work 32 hours a week. It 
will impact Holloman, as it impacts the Army.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Udall. Thank you very much. We're trying to lift 
that sequester and do everything we can to get you the 
resources you need. Thank you.
    Senator Johnson. Thank you.
    This panel is excused.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
 Questions Submitted to Hon. Katherine G. Hammack, Lieutenant General 
Michael Ferriter, Brigadier General Walter E. Fountain, and Addison D. 
                               Davis, IV
               Questions Submitted by Senator Tim Johnson
                            european basing
    Question. The fiscal year 2014 budget request includes funding for 
Army projects and DOD schools at Army bases in Germany. If everything 
is on the table, why should Congress invest in MILCON in Europe until 
the basing review is completed? If certain installations are not on the 
table, can you identify those for us?
    Answer. Military construction (MILCON) in Europe is required for 
Army communities where soldiers and families have been consolidated 
over the last 10 years as part of DOD's Global Defense Posture plans, 
EUCOM's Theater Posture Plan, and Army Transformation. In keeping with 
these long-term plans, the Army in Europe has closed hundreds of 
smaller, inefficient sites since 1989 and the end of the cold war. 
Enduring communities like Wiesbaden, Grafenwoehr, and Kaiserslautern, 
Germany, are mainstays of America's forward presence in Europe and 
provide operational and quality of life support for the 30,000 soldiers 
who will remain in theater.
    Construction in these locations is in line with our support efforts 
and can be expected to be utilized for as long as U.S. forces remain in 
the European theater. All MILCON in Europe is reviewed carefully to 
ensure we do not waste taxpayer money on sites that may no longer be 
needed.
    While all sites are included in the review, initial assessments 
indicate that there are sites that are unlikely to be impacted by the 
study. Unless all forces are withdrawn from Europe, and with that, the 
United States opts to relinquish its strategic political and geographic 
advantages of a forward presence, then remaining communities like 
Wiesbaden, Grafenwoehr, and Kaiserslautern will require some support.
    The fiscal year 2014 submission includes DOD-level projects to 
replace schools in Wiesbaden and Kaiserslautern, which have surpassed 
their structural lifecycle, do not support current educational 
standards, and are overcrowded. As a critical command and control main 
operating base, Wiesbaden is now home to U.S. Army Europe headquarters 
with its signal and military intelligence assets to be co-located 
together on one site at Clay Kaserne. Kaiserslautern represents not 
only a location for strategic airlift, but is also the community that 
houses the Army's combat support and logistical units. Also in 
Kaiserslautern is the United States' only regional medical center 
between the United States and areas of persistent conflict in the 
Middle East, Africa, and other trouble spots. Due to its geographic 
position, this medical facility has increased Wounded Warrior treatment 
and survival rates to historic highs over the past 10 years with its 
combat-tested casualty evacuation system.
    Further, there are members of the DOD staffs involved in the basing 
review to ensure that the Army program and DOD schools are 
synchronized, as they move forward in the programming process.
    The fiscal year 2014 project for housing at South Camp Grafenwoehr 
will help alleviate existing housing shortfalls in the community. With 
its rural location, the Grafenwoehr community does not have sufficient 
off-post housing capacity with an appropriate radius to accommodate the 
numbers of soldiers stationed there. More on-post family housing is 
needed to address this situation. With Grafenwoehr as our primary 
training facility in Europe, the location of our largest concentration 
of soldiers stationed in any European garrison, and the focal point of 
the preparation for deployment of all U.S. soldiers in Europe, it 
warrants our continued support.
               military construction total army analysis
    Question. Will the projects requested in fiscal year 2014 be 
impacted by TAA? In other words, has Army requested projects this year 
that might become unnecessary or redundant by the TAA findings and 
Army's ensuing realignment plans?
    Answer. The projects submitted in the fiscal year 2014 MILCON 
program are for valid and necessary requirements that will not be 
affected by future decisions regarding end strength or brigade combat 
team reductions. The projects support enduring requirements for combat 
aviation brigade stationing, Gray Eagle stationing, initial entry 
training barracks, and recapitalization of existing facility 
requirements across the Army.
                       brigade movement strategy
    Question. Prior to the completion of the TAA review and OSD's 
European basing review, how can the Army make the determination that 
moving two of the 173rd brigade's battalions from Bamberg and 
Schweinfurt to Granfenwoehr is the correct strategy to undertake?
    Answer. The DOD decision, which was announced on February 16, 2012, 
to reduce the Army's European force by approximately 2,500 soldiers in 
enabling units and two Brigade Combat Teams (BCT), allowed U.S. Army 
Europe to adjust its stationing plans and maximize use of our 
facilities in Italy and Germany.
    Placing the two battalions at Grafenwoehr eliminates additional 
MILCON requirements that would otherwise be needed in Vicenza if the 
units were relocated there as previously planned. Subsequent growth in 
U.S. Army Africa, the 173rd IBCT (ABN), and other elements in the 
community led to serious overcrowding in Vicenza. The original MILCON 
request for Del Din was to accommodate some 1,830 soldiers of the 173rd 
U.S. Army Europe will now use these facilities for some 2,000 173rd 
soldiers, so the new facilities will be used at capacity. Relocating 
the two battalions to Grafenwoehr reduces stress on community support 
facilities at Ederle. Stationing the entire 173rd in Italy would 
require new MILCON for barracks, schools, a CDC expansion, and more for 
roughly $120 million. Alternatively, the Army will use existing modern 
facilities available at Grafenwoehr.
    Locating the 1-91st Cavalry Regiment and the 4-319th Field 
Artillery Battalion of the 173rd Infantry BCT (Airborne) to Grafenwoehr 
places those units in a location where they can easily access our 
training areas. Redirecting these two units continues the consolidation 
of soldiers into remaining main operating bases. The Army was already 
focusing on these main operating bases before the current basing 
review. We determined it prudent to put units that can most benefit 
from proximity to our training areas in Grafenwoehr.
    In Italy, soldiers will fully utilize the new facilities in Del Din 
this summer, and the relocation of the 173rd BCT (Airborne) battalions 
from Bamberg and Schweinfurt will enable the timely closure of those 
garrisons. With 11 individual sites between the two communities, 
Bamberg and Schweinfurt generated more than $160 million in base 
operating costs and were identified some 10 years ago for closure. 
Since Bamberg and Schweinfurt were not tagged as main operating bases 
in the DOD Global Posture Plan, facilities there have been only 
minimally maintained with no military construction. The two communities 
have been funded only with year-of-execution dollars for the past few 
years. Their closures were publicly announced as part of the DOD 2012 
BCT announcement and garrison staffs, including hundreds of local 
national employees, were notified, as well as German officials at the 
Federal, State, and local level.
    The DOD 2012 announcement incorporated the major changes in the TAA 
process, bringing the Army in Europe to some 30,000 soldiers. The TAA 
process is not anticipated to generate any significant change that 
could not be accommodated by this distribution of remaining forces.
                 173rd combat aviation brigade support
    Question. In the fiscal year 2014 budget, the Army has requested 
$16.6 million to construct 29 family housing units in Vilseck, Germany, 
to support military forces stationed at Grafenwoehr. At the same time, 
the Army has decided to station two units of the 173rd Combat Aviation 
Brigade at Grafenwoehr instead of moving to Italy as originally 
planned.
    Is this housing required for the 173rd's move? What, if any, other 
MILCON is required at Grafenwoehr to support the 173rd?
    Answer. The Army Family Housing-Construction funds are required to 
meet all family housing requirements at U.S. Army Garrison Grafenwoehr, 
which includes the restationing of the two battalions from the 173rd 
Brigade Combat Team. The family housing requirements are based on the 
total installation population found in the Army Stationing and 
Installation Plan. The project will support the current and projected 
Grafenwoehr military population, which includes personnel transferred 
from closing garrisons throughout Germany. No additional MILCON is 
needed for the 173rd battalions at Grafenwoehr.
   guard and reserve future years defense program (fydp) projections
    Question. With the understanding that the budget environment has 
stressed fiscal year 2014 MILCON funding, will the Army Guard and Army 
Reserve be able to meet their critical mission roles given revised out-
year FYDP projections?
    Answer. The Army remains committed to providing MILCON funding to 
all components in support of their most urgent facility restoration and 
modernization requirements. The Army National Guard and Army Reserve 
will continue to fulfill their critical mission roles at the level of 
MILCON funding in the fiscal year 2014 request. The projected out-years 
in the fiscal years 2014-2018 Future Years Defense Program (FYDP) 
contain some risk to meeting critical mission roles for all components. 
The Army's components facilities require a sustained MILCON investment 
in order to properly support unit readiness.
    The Army recognizes there are differences in the level of 
investment over the past decade and has already identified National 
Guard readiness centers and Army Reserve centers as a focus area in the 
facility investment strategy, they are prioritized for MILCON 
investment. Further, the Army is working with both components to 
address their requirements by reviewing the percentage allocation of 
the total obligation authority as well as continuing to support 
sustainment, restoration and modernization requirements.
                    national guard readiness centers
    Question. An estimated 40 percent of National Guard readiness 
centers are 50 years old or older. How is the reduction in Army Guard 
funding affecting the Guard's ability to replace these aging and 
inadequate buildings?
    Answer. The Army remains committed to providing Military 
Construction (MILCON) funding to all components in support of our most 
urgent facility restoration and modernization requirements. The Army 
recognizes there are differences in the level of investment over the 
past decade and has already identified National Guard readiness centers 
that continue to have a critical need for MILCON investment as a focus 
area in the Facility Investment Strategy. Further, the Army is working 
with the Army National Guard (ARNG) to address its requirements by 
reviewing the percentage allocation of the Total Obligation Authority 
as well as continuing to support sustainment, restoration and 
modernization requirements.
    The reduction in ARNG funding impacts the ability to replace aging 
and inadequate buildings and properly support unit readiness in several 
ways. First, it slows the rate at which the aging, inadequate readiness 
centers can be replaced with functionally adequate facilities. Second, 
inadequate facilities lead to a loss and inefficient use of training 
time due to facility shortcomings. Third, many of these aging and 
outdated facilities lack the space, design, information technology 
requirements, and energy efficiency improvements needed to house ARNG 
units.
               impact of downward trend of milcon funding
    Question. What is the impact of the downward trend of MILCON 
funding on Army Reserve facilities and readiness?
    Answer. The downward trend of the MILCON funding presents no 
immediate degradation of either Army Reserve facilities or the 
readiness of the Army Reserve. However, the continuation of reduced 
funding will have a negative impact on facility sustainment and mission 
readiness. The Army Reserve will continue to prioritize its MILCON 
program within available funding to resource its most critical facility 
needs to fully support all known mission requirements and provide 
appropriate facilities to its citizen-soldiers. However, maintaining a 
reduced program over the long term will increase the average age of 
Army Reserve facilities resulting in more units and soldiers training 
in overcrowded and substandard facilities for an extended period of 
time.
            future years defense program (fydp) projections
    Question. Is the steep drop in Army's MILCON FYDP over the past 
couple of years a reflection of future needs and supported by solid 
projections, or is it an indication of uncertainty regarding the 
direction of the future MILCON program, particularly given that TAA 
remains to be completed?
    Answer. The reduction in Army MILCON is a result of fiscal 
constraints from the 2011 Budget Control Act. The uncertainty related 
to pending force structure decisions did not impact the MILCON funding 
levels. Furthermore, Army MILCON programs are developed to support Army 
priorities that provide operational capability, prevent imminent 
mission degradation or failure, and enhance soldier and family quality 
of life, health, and safety. When the force structure decision is made, 
the Army MILCON program will continue to support the Army's highest 
priorities.
                  future years defense program (fydp)
    Question. Looking at out-year MILCON levels, will the Army's 
current and future requirements be met under the program as currently 
envisioned, or do you expect major revisions in the FYDP next year once 
you have a better picture of the Army's future force structure and 
laydown requirements?
    Answer. The Army does not anticipate major revisions in the FYDP 
based on Total Army Analysis (TAA) decisions on the Army's future force 
structure. The program will be re-evaluated for out-year minor 
revisions and reprioritization once the Army's force structure and 
stationing decisions are finalized. Army MILCON programs are developed 
to support Army priorities that provide operational capability, prevent 
imminent mission degradation or failure, and enhance soldier and family 
quality of life, health, and safety. During the process of selecting 
projects for inclusion in the fiscal years 2014-2018 FYDP, the Army 
selected projects that replace existing facilities that are either 
failing, inadequate for the mission requirements or neutral to pending 
force structure decisions.
                              bid savings
    Question. While use of bid savings may be an effective backup plan 
for funding projects in fiscal year 2013, if bid-savings diminish in 
fiscal year 2014, does the Army have an alternative strategy for making 
up funding shortfalls under the sequester?
    Answer. The projects presented in the fiscal year 2014 MILCON 
program reflect sound cost estimates and favorable bid climates. If the 
Army does not continue to garner bid savings as in the past and if 
there are funding short falls under a future sequester, our only 
options are to defer, reduce scope, or cancel projects prior to award. 
All un-awarded projects would be subjected to a thorough revalidation 
process and reprioritized based on requirements and operational risk.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                  base realignment and closure (brac)
    Question. Last week Undersecretary Hale made a plea before this 
subcommittee for another round of continental United States (CONUS) 
base closures. Yet, the Secretary of Defense does not need BRAC 
authority to close overseas bases, but has rarely done so. DOD is doing 
a European Consolidation Study which is due at the end of the year. 
Given that the Army has modified its 10-year plan several times 
(Heidelberg, Wiesbaden, and now Del Din, Italy).
    Ms. Hammack, a large number of members of the Senate are wondering 
why we shouldn't just wait until the study is complete, see what 
European bases need to be closed or realigned, decide where the troops 
will move to, and then discuss the need for another round of CONUS base 
closures. Would you please comment on this?
    Answer. An independent assessment of the Department's overseas 
basing of military forces, as required by section 347 of the fiscal 
year 2012 National Defense Authorization Act, was completed by the RAND 
Corporation on December 31, 2012. The Department delivered the 
assessment, and the Deputy Secretary's comments in response to the 
assessment, to the congressional defense committees on April 18. It is 
practical to undertake reviews of overseas and domestic infrastructure 
in tandem, so each can inform the other.
    Since 2006, the Army has reduced its end strength and force 
structure in Europe by over 45 percent. Correspondingly, the Army is on 
a path by fiscal year 2017 to reduce its supporting infrastructure by 
51 percent, civilian staffing by 58 percent, and base operations by 57 
percent. The Army has already announced the elimination of two brigade 
combat teams in Europe, the inactivation of V Corps, and the 
inactivation of thousands of additional enabler forces.
    The story in Korea is similar. Significant declines in soldiers--
more than 10,000 removed from Korea since 2006--has supported a 
consolidation of garrisons and sites.
    The consolidation of the Army's overseas footprint is a process 
that is well underway and is properly sequenced before a future round 
of BRAC would be executed here in the United States.
                          rock island arsenal
    Question. The Rock Island Arsenal depot expected more than $143 
million in workload--much of which would be done by our public--private 
ventures--yet to date they have only seen $45.6 million in workload.
    Ms. Hammack, can I have your assurances you are not trying to close 
Rock Island Arsenal by the back door by making it less attractive to a 
potential BRAC Commission?
    Answer. Yes, I can assure you that the Army is not trying to close 
Rock Island Arsenal through any ``back door.''
    Question. Ms. Hammack, why is the work not flowing to Rock Island 
Arsenal?
    Answer. Although the fiscal year 2014 budget estimate submission 
for Rock Island Arsenal was $142.6 million, the revised new order 
forecast is $76.8 million. While Rock Island Arsenal's Joint 
Manufacturing Technology Center is the Army's Center for Industrial and 
Technological Excellence for Mobile Maintenance Systems, Foundry 
Operations, and Armor Development, the customer requirements and 
correlating workload did not materialize as expected due to the effects 
of sequestration and changes in customer requirements.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                       laboratory infrastructure
    Question. I am concerned that laboratories, especially in the Army 
and Navy, had to take a back seat to other priorities in the MILCON 
budget process over the past several years. What laboratory 
infrastructure projects are currently budgeted, programmed, or are you 
are considering programming in the FYDP that will help ensure our 
scientists' research and development efforts have the facilities to 
support the Nation's critical interests? What can we do to ensure that 
scientists and engineers in the Defense laboratories will have the 
facilities and equipment the Nation will need in the future?
    Answer. The Army does not have any laboratory infrastructure 
projects programmed for fiscal years 2014-2018 in the Future Years 
Defense Program (FYDP). In accordance with its Facility Investment 
Strategy (FIS), which is designed to address facilities that are in the 
highest state of disrepair first, the Army prioritized projects that 
were provided by the Army commands or components as their highest 
priority MILCON requirements. Few laboratory projects were submitted 
for consideration during the fiscal years 2014-2018 FYDP build, and 
none were selected.
    The fiscal years 2014-2018 MILCON program has been carefully 
balanced and synchronized to meet FIS requirements, major Army 
initiatives, statutory law, stationing decisions, and the Army Campaign 
Plan. The Army will continue to encourage the commands and components 
to submit their highest priority projects for consideration in future 
MILCON programs. Laboratory infrastructure projects will continue to 
compete for constrained MILCON funding in future years.
                      Department of the Air Force

STATEMENT OF HON. KATHLEEN I. FERGUSON, ACTING 
            ASSISTANT SECRETARY OF THE AIR FORCE, 
            INSTALLATIONS, ENVIRONMENT AND LOGISTICS
ACCOMPANIED BY:
        TIMOTHY BRIDGES, DEPUTY ASSISTANT SECRETARY, INSTALLATIONS
        MAJOR GENERAL TIMOTHY BYERS, AIR FORCE CIVIL ENGINEER, AIR 
            FORCE
        MAJOR GENERAL RICHARD HADDAD, DEPUTY CHIEF, AIR FORCE RESERVE
        BRIGADIER GENERAL JAMES WITHAM, DEPUTY DIRECTOR, AIR NATIONAL 
            GUARD
    Senator Johnson. I'm pleased to welcome our second panel of 
witnesses. The panel includes Ms. Kathleen Ferguson, Acting 
Assistant Secretary of the Air Force for Installations, 
Environment, and Logistics; Mr. Timothy Bridges, Deputy 
Assistant Secretary for Installations; Major General Timothy 
Byers, Air Force Civil Engineer; Major General Richard Haddad, 
Deputy Chief, Air Force Reserve; and Brigadier General James 
Witham, Deputy Director, Air National Guard.
    We welcome you, and we look forward to your testimony. As I 
mentioned earlier, we're limiting opening statements to spare 
our witnesses the inconvenience of waiting until the Senate 
completes the series of votes scheduled to begin shortly.
    I would just like to note that I'm relieved to see that the 
fiscal year 2014 MILCON and family housing budget request for 
the Air Force has rebounded after last year's deliberate pause 
in funding. However, I'm concerned that the Air Force will have 
to play catch-up ball on MILCON over the next few years to make 
up for last year's pause. At a time of major reductions in the 
overall defense budget, this will be a tall order for the Air 
Force.
    Ms. Ferguson, we welcome you back to the subcommittee. 
Before you proceed, I would like to thank General Byers for his 
service to the Nation and his assistance to this subcommittee 
in his role as the Air Force Civil Engineer.
    General Byers will be retiring next month, but I hope he 
will continue to contribute his expertise to the many 
challenges facing DOD and the Air Force today.
    Ms. Ferguson, please proceed.

             SUMMARY STATEMENT OF HON. KATHLEEN I. FERGUSON

    Ms. Ferguson. Good morning, Chairman Johnson, Ranking 
Member Kirk, and distinguished members of the subcommittee. 
Thank you for the opportunity to speak to you today about the 
Total Force Air Force installation, military construction, and 
environmental programs.
    Also, on behalf of the Secretary and the Chief of Staff, 
I'd like to thank the subcommittee for your unwavering support 
of our Air Force and our airmen.
    Our fiscal year 2014 budget request contains $1.3 billion 
for Military Construction, $2.2 billion for Facilities 
Sustainment, $813 million for Restoration and Modernization, 
and $465 million for Military Family Housing. In fiscal year 
2013, we took a deliberate pause in MILCON to ensure we were 
making the right capital investment decisions as force 
structure adjustments were being made in line with the emerging 
defense strategy.
    Our fiscal year 2014 MILCON request is $900 million above 
our fiscal year 2013 request and returns us to near-historic 
funding levels, supports the Department's strategic priorities, 
and supports our top weapons systems modernization programs.
    Ensuring component equity targets were met, approximately 
$120 million and $46 million were distributed to the Guard and 
Reserve components, respectively. This is an increase of $77 
million for the Guard and $35 million for the Reserve between 
fiscal years 2013 and 2014.
    This budget request reflects our ongoing modernization 
effort. This includes critical infrastructure for the F-35 and 
KC-46A, recapitalization of U.S. Strategic Command 
headquarters, and construction of the new Cyber Command Joint 
Operations Center.
    Included in this budget request is $265 million in 
unspecified locations to support the KC-46A beddown. We will 
submit site-specific military construction data request forms 
in late May after preferred and reasonable alternative bases 
are announced. And we respectfully request the subcommittee's 
support of the substitution.
    The Air Force strongly supports the Department's request 
for another round of BRAC in 2015. While we have no current 
capacity analysis from which to draw, our capacity analysis 
from 2004 suggested that 24 percent of basing infrastructure 
was excess to needs.
    BRAC 2005 did not result in major reductions to the Air 
Force. And since that time, our force structure has been cut by 
more than 500 aircraft, and our Active Duty military end 
strength has been reduced by nearly 8 percent.
    We continue to spend money maintaining excess 
infrastructure that would be better spent on recapitalization 
and sustainment. Divestiture of excess property on a grander 
scale is a must.
    During this period of fiscal uncertainty, Guard, Reserve, 
and Active components are ready to make the tough decisions 
required to avoid mission-impacting reductions in installation 
support that contribute to a hollow force.

                          PREPARED STATEMENTS

    Our fiscal year 2014 budget request addresses our most 
pressing needs, seeks authorization to eliminate unnecessary 
infrastructure, and it stays true to the fundamental priorities 
of our Air Force.
    Thank you, and we look forward to your questions.
    [The statements follow:]
            Prepared Statement of Hon. Kathleen I. Ferguson
                              introduction
    As you are aware, the United States Air Force takes great care to 
project the distinctive capabilities of airpower. From air and space 
superiority--enabling joint and coalition forces to operate unhindered 
in the air domain while denying our adversaries the same--to global 
strike--holding any target on the planet at risk with either 
conventional or nuclear forces--to rapid global mobility, global 
intelligence, surveillance, and reconnaissance, and the command and 
control architecture to integrate full-spectrum joint military 
operations, the Nation expects our Air Force to provide and employ 
these enduring contributions from a position of continuing advantage 
over potential adversaries.
    Those contributions are enabled and reinforced by our global 
network of Air Force installations, and managing those installations 
involves understanding and balancing mission requirements, risk, market 
dynamics, budgets, and the condition of our assets. Within the 
portfolio of installations, environment, and energy, we continually 
evaluate how to reduce costs while improving the way we manage our real 
estate, housing and energy demand. We focus our investments on critical 
facilities; reduce our footprint by demolishing old, energy-inefficient 
buildings; upgrade heating and cooling systems and other energy-intense 
building systems; leverage third-party financing through public-public 
and public-private partnerships and the lease of under-utilized 
portions of the portfolio, where those opportunities exist; and 
continue to build on our excellence in environment, safety, and 
occupational health programs.
    However, today's fiscal climate challenges our ability to maintain 
our current suite of capabilities and jeopardizes our ability to 
fulfill our role in executing the Nation's Defense Strategic Guidance. 
With this fiscal year 2014 budget request, we took great care to align 
our limited resources with our overall objectives to maintain a high 
quality and ready force by investing in readiness, modernization, and 
airmen and their families. Proud of our success but realizing the 
fiscal challenges that lie ahead, we will continue to work hard to 
identify opportunities and initiatives with high rates of return that 
will maximize the impact of every dollar. We are committed to charting 
a path through these challenging times that fulfills the promises made 
to the American people, our Nation's leaders, and our innovative airmen 
and their families. I appreciate the opportunity to provide additional 
details in this testimony.
                             installations
    Ready installations are an integral part of ensuring a ready Air 
Force. We consider our installations ``power projection platforms'' 
from which we employ our enduring airpower contributions, increase 
responsiveness, and ensure global access across the full spectrum of 
military operations. As such, the health of our installations directly 
contributes to overall Air Force readiness. Our Air Force installation 
investment strategy for fiscal year 2014 focuses on the Air Force's 
enduring contributions and on building sustainable installations to 
enable the Defense Strategy. We will employ a Centralized Asset 
Management approach to apply our limited installation dollars to our 
most critical needs. Using a ``mission-critical, worst-first'' 
methodology, we will minimize risk-to-mission and risk-to-airmen, and 
continue to optimize our processes to increase efficiency. 
Additionally, we must address the excess capacity we have identified 
previously to ``right-size'' our installations footprint to a smaller, 
but more flexible and agile, Air Force of the future. Continuing to 
live with more capacity than we need and have resources to sustain is 
akin to a ``hollow force,'' or in this case, ``hollow installations.''
    Given our strategic intent to build sustainable installations, we 
established a coherent link between our major installation programs 
during this year's budget formulation. After researching existing 
academic studies and analyzing private sector data, we determined we 
should resource maintenance and repair of our infrastructure programs 
at 2 percent of our plant replacement value. As a result, we are 
funding facilities sustainment to 80 percent of the Department of 
Defense's facilities sustainment model, increasing restoration and 
modernization investments, and increasing Military Construction 
(MILCON) funding to near historic levels after our fiscal year 2013 
deliberate pause. In addition, we adjusted the utilities portion of our 
facilities operations account to meet 3-year historical obligation 
levels and fully resourced fire and emergency services to meet 
Department of Defense standards. Taken together, these investments 
avoid hollowing out our installations--our power projection platforms--
in the near term.
    In total, our fiscal year 2014 President's budget request contains 
$4.31 billion for Military Construction, Facility Sustainment, 
Restoration and Modernization, as well as another $465 million for 
Military Family Housing. For Sustainment, we request $2.2 billion; for 
Restoration and Modernization, $813 million; and for Military 
Construction, we request $1.3 \1\ billion, which is approximately $900 
million more than our fiscal year 2013 President's budget request. As 
previously stated, this MILCON increase comes just 1 year after our 
deliberate pause. This is intended to bring our MILCON funding closer 
to historical levels, supporting the Department's strategic priorities, 
as well as the service's top weapons system modernization programs, and 
distributes MILCON funding equitably between Active, Guard, and Reserve 
components.
---------------------------------------------------------------------------
    \1\ $1.3 billion is total force funding request including Active, 
Guard and Reserve.
---------------------------------------------------------------------------
                               readiness
    Our fiscal year 2014 President's budget request includes vital 
facility and infrastructure requirements in support of Air Force 
readiness and mission preparedness. Examples of this include 
investments in projects which strengthen our nuclear deterrence posture 
at Minot Air Force Base, North Dakota, and Kirtland Air Force Base, New 
Mexico. Our budget request also supports Total Force cyberspace and 
intelligence, surveillance, and reconnaissance projects at a host of 
locations, including Martin State and Fort Meade, Maryland; Terre 
Haute, Indiana; Birmingham, Alabama, and the Air Force Weapons School 
at Nellis Air Force Base, Nevada.
    Consistent with National Military Strategy, another key focus area 
for the Air Force is the Asia-Pacific theater, where we will make key 
investments to ensure our ability to project power in areas in which 
our access and freedom to operate are challenged, and continue efforts 
to enhance resiliency. Guam remains our most vital and diplomatically 
accessible location in the western Pacific. For the past 8 years, Joint 
Region Marianas-Andersen Air Force Base has accommodated a continual 
presence of our Nation's premier air assets, and will continue to serve 
as the strategic and operational nucleus for military operations, 
originating from, or transiting through, in support of a potential 
spectrum of crises.
    To fully support Pacific Command's strategy, the Air Force is 
committed to hardening critical infrastructure, including select 
hangars, as part of Pacific Airpower Resiliency, a comprehensive 
initiative that also includes dispersal and rapid recovery capabilities 
after attack. Guam's location also provides ideal environments for 
training and exercises. In 2014, we plan to continue the development of 
the Pacific Regional Training Center (PRTC) by constructing a Silver 
Flag Fire Rescue and Emergency Management training facility and a Rapid 
Engineer Deployable Heavy Operational Repair Squadron Engineers (RED 
HORSE) Airfield Operations facility. These facilities will enable 
mandatory contingency training and enhance the operational capability 
to build, maintain, operate and recover a ``bare base'' at forward-
deployed locations, and foster opportunities for partnership building 
in this vitally important area of the world.
                             modernization
    The fiscal year 2014 budget request includes key infrastructure 
investments to support beddown of the F-35A and KC-46. Our ability to 
remain on schedule with modernizing our aging fighter and tanker 
aircraft depend on meeting construction timelines for critical enabling 
infrastructure--facilities such as aircraft maintenance hangars, 
training and operations facilities, and apron and fuels infrastructure. 
This year's President's budget request includes a $265 million at three 
locations to support the KC-46A bed down. This consists of $193 million 
at an unspecified location for Main Operating Base (MOB) No. 1, $63 
million at an unspecified location for the Flight Training Unit (FTU), 
and $9 million for land acquisition at Tinker Air Force Base, Oklahoma 
for the KC-46A depot. Potential facility types at MOB No. 1 and FTU 
include a flight simulator facility, 2-bay maintenance hangar, fuel 
cell and corrosion control hangar, parking apron and hydrant fuel 
system, flight training center, fuselage trainer, squadron operations 
and aircraft maintenance unit facilities. Specific site fiscal year 
2014 military construction project data forms (DD forms 1391) will be 
submitted to replace the unspecified MOB No. 1 and FTU projects in May 
2013 after preferred and reasonable alternative bases are announced. 
Our fiscal year 2014 program also supports vital combatant commander 
priorities, such as continuation of the multi-year effort to 
recapitalize the U.S. Strategic Command headquarters facility at Offutt 
Air Force Base, Nebraska, and construction of the new Cyber Command 
Joint Operations Center at Fort Meade, Maryland.
                                 people
    Airmen are the Air Force's greatest asset. Recruitment, quality of 
life, and retention rank among our highest priorities. Our devotion to 
taking care of our people continues with future plans to provide 
adequate housing for our airmen, and their families by budgeting to 
sustain and modernize overseas housing, privatize all housing in the 
United States by the end of 2013, and continue investments and 
improvements in our dormitories. We are proud to say that our 
persistent focus and investments in our dormitories has allowed the Air 
Force to surpass the DOD goal that 90 percent of permanent party dorm 
rooms for unaccompanied airmen are adequate by 2017. We request 
continued support from Congress to ensure we can continue to invest in 
these areas in order to provide thriving housing and dormitory 
communities, and more importantly, take care of our valued people.
                       closures and realignments
    We do all of this while recognizing that we are carrying 
infrastructure that is excess to our needs. While we have no recent 
excess infrastructure capacity analysis from which to draw, our 
capacity analysis from 2004 suggested that 24 percent of Air Force 
basing infrastructure capacity was excess to our mission needs. While 
Base Realignment and Closure (BRAC) 2005 did not make major reductions 
to the Air Force, since that time we have reduced our force structure 
by more than 500 aircraft and reduced our Active Duty military end 
strength by nearly 8 percent. So, intuitively we know that we still 
have excess infrastructure, while we spend considerable time optimizing 
the use of our facilities and carefully and frugally managing those 
facilities we know to be excess.
    Physical infrastructure is expensive. As discussed, the Air Force 
spends billions of dollars each year operating, sustaining, 
recapitalizing, and modernizing our physical plant. When we account for 
the additional costs of running our installations, that number nearly 
doubles. Since the last BRAC round, we have strived to identify new 
opportunities and initiatives that enable us to maximize the impact of 
every dollar we spend. Our efforts to demolish excess infrastructure, 
recapitalize our family housing through privatization, unlock the 
fiscal potential value of under-utilized resources through leasing, and 
reduce our energy costs have paid considerable dividends.
    Since 2006, we have demolished 38.5 million square feet of aging 
building space that was excess to our needs. We estimate the resultant 
savings to be more than $300 million. To be more specific, we have 
demolished antiquated administrative facilities, ill-suited for today's 
technological age and excess to our needs. We have eliminated aircraft 
operational and maintenance facilities that we no longer need based on 
reductions to the size of our aircraft fleet. We have demolished old 
and energy-inefficient warehouse facilities no longer needed due to 
rapidly evolving supply chains that reduce the need for localized 
storage.
    Like our sister services, the Air Force is committed to providing 
quality housing for airmen and their families. Through housing 
privatization, the Air Force has invested $500 million and, in turn, 
leveraged $7.5 billion in private-sector funding to provide quality 
homes for airmen much more quickly than we could have done with 
traditional military construction processes. In a similar vein, we have 
continually sought to improve the stewardship of our real property by 
leveraging appropriated dollars for private-sector investment. With the 
authorities provided to execute enhanced-use leases, we are pursuing 
innovative ways to leverage our underutilized real estate to return 
value to our installations. As a result of our energy conservation 
efforts, we have cumulatively avoided more than $1 billion in facility 
energy costs since 2003, the funds for which have been redirected to 
better enable warfighters to complete their missions. We will continue 
to invest in all of these strategies.
    Despite our best efforts and the innovative programs we've just 
mentioned, we continue to spend money maintaining excess infrastructure 
that would be better spent recapitalizing and sustaining our weapons 
systems, training for readiness, and investing in the quality of life 
needs of airmen. Divestiture of excess property on a grander scale is a 
must.
                 european infrastructure consolidation
    Since 1990, the Air Force has reduced both aircraft and forces 
stationed in Europe by 75 percent. We operate from six main operating 
bases that remain critical to our NATO commitments and provide 
throughput and global access for three unified combatant commands. We 
recognize that in light of recent evolutions in the national security 
strategy, there may be further opportunities for consolidation. The 
Secretary of Defense has directed a capacity analysis to explore 
additional opportunities for reducing long-term expenses through 
footprint consolidation in Europe, and the Air Force fully supports 
this effort. We already plan to draw down 18 Primary Aerospace Vehicle 
Authorized (PAA) A-10s in Europe in fiscal year 2013 and to reduce 
operations at Lajes Field, Azores, to better match infrastructure 
requirements to mission demand. Through the Office of Secretary of 
Defense-led study, we will look for additional opportunities for 
operations and support cost savings through consolidation and closure.
               air force encroachment management program
    The Air Force needs access to airspace and ranges from its air 
bases to ensure its ability to conduct test and evaluation and 
operational and training missions. In some cases communities are 
unaware that economic or land-use initiatives they are pursuing--such 
as development right up to the base boundary or under airspace safety 
zones--have the potential to limit our options for current and future 
mission needs.
    As a result, we have instituted an Air Force Encroachment 
Management framework to identify and address potential encroachment 
issues early on. We attempt to identify, address and actively work with 
community planners and conservation groups to develop compatible uses 
through joint land use and airspace studies that preserve Air Force 
options and those of the surrounding communities.
    To date the Air Force has worked with 32 community stakeholders in 
creating Installation Complex Encroachment Management Action Plans 
(ICEMAPs) as a means to identify current or potential encroachment 
issues and the actions necessary to resolve these issues to our mutual 
benefit. These action plans have proved so successful that the Office 
of Economic Adjustment has indicated they would prefer to accomplish a 
joint land use study after an ICEMAP has been completed because it 
identifies stakeholders and an installation's mission footprint (land 
area beyond the base boundary like military training routes, special 
use airspace or drop zones) that has proven key to identifying 
compatible development strategies. This may include adoption of land 
use controls in accident potential zones or clear zones, acquisition of 
easements or key parcels of land affecting access to our airspace and 
ranges--this includes leveraging the DOD-directed Readiness 
Environmental Protection Initiative (REPI); addressing line of sight 
obstructions to critical microwave wireless communication and potential 
mitigations; working comprehensive solutions with community 
stakeholders like the Gulf Regional Airspace Strategic Initiative 
(GRASI) with communities around Eglin Air Force Base or addressing 
better use of water resources in areas facing shortages now or in the 
future.
    We are also working with DOD on analyzing the effects of siting the 
varying types of renewable energy projects and how best to work with 
developers and communities to minimize or mitigate potential impacts to 
our Air Force training, test and evaluation missions. Together, with 
the DOD Siting Clearinghouse and other services and agencies, we have 
cleared more than 1,500 projects for further development. We now have 
several initiatives underway that should help developers and local 
communities understand those areas near DOD installations with a high 
risk of adverse impact and those more suitable for the development of 
renewable energy or other economic initiatives.
               air force community partnership initiative
    The Air Force is enthusiastically exploring the potential of 
installation-community partnerships as a means to reduce operating and 
service costs in support of the Air Force mission while retaining or 
enhancing quality. This concept is embodied in the fiscal year 2013 
National Defense Authorization Act language 10 U.S.C. section 2336, and 
this legislation has the potential to increase DOD and the service 
departments' latitude in pursuing creative public-public and public-
private, or ``P4'', partnership initiatives.
    Currently, the Air Force is testing a prototype process through 
which installation and community leaders are motivated to develop 
creative ways to leverage their capabilities and resources and in the 
process, reduce mutual operating costs. Through this innovative start-
up program, we have agreed to provide support to 13 locations where 
installation and community leaders have fully embraced the Air Force 
Community Partnership concept. We are using these prototype initiatives 
to drive the development of policy, identification of an oversight 
framework/governance structure and training requirements, types of 
potential opportunities and requisite resource requirements and 
priorities.
                               conclusion
    During this period of fiscal uncertainty, the Air Force is ready to 
make the tough decisions required to avoid mission-impacting reductions 
in installation support that contribute to a hollow force. We recognize 
it will take strong leadership to ensure a fully trained and ready 
force, along with the facilities and support to maintain the range of 
capabilities required to engage a full range of contingencies and 
threats, at home and abroad.
    Our fiscal year 2014 budget request addresses our most pressing 
needs, and it stays true to the five fundamental priorities of our Air 
Force. We continue to mature our use of centralized asset management 
principles to mitigate the risk that we accept by deferring 
recapitalization of current mission facilities. And, we remain 
committed to caring for our airmen and their families as we strive to 
eliminate inadequate housing by 2018, and to complete our privatized 
housing initiative in the United States by 2013.
    While we strive toward remaining ready, capable and viable for the 
numerous security challenges ahead, we must be clear--the Air Force's 
fiscal year 2014 budget request represents continued risk in our 
installations programs. We have made hard strategic choices during 
formulation of this budget request. We needed to slow the erosion in 
full-spectrum readiness as a result of over 20 years of combat in the 
Middle East. We needed to sustain our legacy fleet to remain capable of 
delivering the combat effects our combatant commanders require in the 
near term fight. And we needed to continue modernizing our aging fleet 
of fighters, bombers and refuelers that allow us to remain viable over 
the long term, particularly in the high-end anti-access/area denial 
environment we expect to fight in the far term. That required us to 
take continued risk in areas we would choose not to take risk in, such 
as our installations. We believe this risk is prudent and manageable in 
the short-term, but we must continue the dialogue on right-sizing our 
installations footprint for a smaller, but more capable force that sets 
the proper course for enabling the Defense Strategy while addressing 
our most pressing national security issue--our fiscal environment.
    Finally, we continue to carefully scrutinize every dollar that we 
spend. Our commitment to continued efficiencies, a properly sized force 
structure, and right-sized installations will enable us to ensure 
maximum returns on the Nation's investment in her airmen, who provide 
our trademark, highly valued airpower capabilities for the joint team.
                                 ______
                                 
           Prepared Statement of Major General Richard Haddad
    Chairman Johnson, Ranking Member Kirk, and distinguished members of 
the subcommittee, thank you for the opportunity to appear before you 
today. I'm honored to represent America's citizen airmen and discuss 
the Air Force Reserve's military construction program.
    First, I wish to highlight the over 70,000 Air Force reservists who 
provide our Nation's defense with operational capability, strategic 
depth and surge capacity. Approximately 2,000 citizen airmen are 
currently deployed and 3,000 are on Active Duty status in support of 
combatant commander requirements. We are still in high demand and we 
deliver a diverse portfolio of capability in title 10 status as your 
Federal Reserve.
    Air Force Reserve capabilities traverse air space and cyber space. 
Our ability to fly, fight, and win in these domains is dependent, in 
part, upon the quality of the installations in which we reside and 
operate. We are a tenant at over 50 installations, where we maximize 
taxpayer dollars by sharing facilities when possible. By minimizing our 
facility footprint, we further increase the cost-effectiveness of our 
Reserve force.
    For fiscal year 2014, the Air Force Reserve MILCON budget request 
is $45.6 million. This request funds our highest priority project, a 
joint regional deployment processing center at March Air Reserve Base, 
California. This facility will support the deployment needs for the Air 
Force Reserve and other Government agencies, such as the First Marine 
Expeditionary Force.
    This request also provides for construction of a squadron 
operations facility for the 513th Air Control Group at Tinker Air Force 
Base in Oklahoma and an Entry Control Complex at Homestead Air Reserve 
Base in Florida. The Planning and Design funds request is $2.2 million 
and $1.5 million is for Minor Construction funds used for urgent and 
compelling projects of less than $2 million.
    As you consider our proposed budget, I wish to highlight that the 
Air Force Reserve appreciates the return to historical MILCON funding 
levels, however, the uncertainty of sequestration could negatively 
impact our fiscal year 2014 program. I thank the subcommittee for your 
continued support of America's citizen airmen. I stand ready to answer 
any of your questions.

    Senator Johnson. Ms. Ferguson, the Office of Management and 
Budget (OMB) scoring issues have delayed the award of the 
Northern Group Housing Privatization project, which is very 
important to Ellsworth Air Force Base. I understand that on May 
3, OSD sent OMB the revised Air Force scoring report.
    What is the status of this project? And when does the Air 
Force need to get the green light from OMB to keep the project 
on schedule?
    Ms. Ferguson. Senator, you're correct. The revised scoring 
report went back to OMB in early May. We need to get that 
scoring report approved and back from OMB by the first of July 
in order to close the project this fiscal year. And we're 
working with OSD and OMB to try to make that happen in order to 
close the project. And as you know, it has been in the works 
for many, many years now.
    Senator Johnson. Do you foresee any further scoring issues 
or other problems that could further delay the award of this 
project?
    Ms. Ferguson. No, I do not, once we clear this. We are in 
final negotiations with the developer now. We are ready to 
close as soon as we get the scoring report back and make the 
transfer of the dollars into the family housing improvement 
fund.
    Senator Johnson. Will you please keep me informed on the 
progress of this project?
    Ms. Ferguson. Will do.
    Senator Johnson. General Haddad and General Witham, the Air 
National Guard and the Air Force Reserve offer this country 
tremendous value for a relatively moderate investment. After a 
decade of admirable wartime service, we need to continue to 
make MILCON investments in the Air Guard and Reserve to 
preserve their mission capability and operational readiness.
    The Air Force prides itself on operating as a total force 
with the Active, Guard, and Reserve components all part of the 
same team. However, when it comes to MILCON funding, the 
playing field is not very level. The Air Guard share of the 
fiscal year 2014 MILCON request is just over 9 percent while 
the Reserve share is just 3.5 percent.
    Do you think the Air Guard and Reserve are sufficiently 
funded to meet both current and emerging MILCON needs?
    General Haddad. Senator Johnson, thanks for that 
categorization of the situation.
    I would submit to you that the Air Force has done a great 
job in fiscal year 2014 of ensuring equity across the board. 
For this particular year, the Air Force Reserve should have 
about 3.4 percent, and we were given 3.5 percent of the 
allotment. So we are very content with the equity that we've 
received by the Air Force.
    And my hat's off to Ms. Ferguson and her staff for ensuring 
that our folks are playing an equitable role within that 
distribution.
    However, I would submit that sequestration, the impacts of 
sequestration, they are unknown at the moment, and as a result, 
we are not sure how that would impact 2014. We know in 2013, it 
would be about a 10-percent cut, which we would be able to 
utilize some of our bid savings to accommodate that. But in 
2014, that's still unknown.
    And I would ask the subcommittee to ensure that 
sequestration does not affect the MILCON budget. Thank you.
    General Witham. Chairman Johnson, thank you for the 
question.
    Based on the Air National Guard's fiscal plan size, the 
target percentage should have been about 8.4 percent. The 
National Guard was actually provided 8.9 percent in the fiscal 
year 2014 budget request. We think the Air National Guard is 
being treated fairly.
    We will remain challenged in terms of bedding down new 
missions, specifically the KC-46, some of the NDAA 2013 new 
mission sets. These will remain challenging in terms of bedding 
those down, but we have been treated fairly in this budget 
request.
    Senator Johnson. Senator Kirk.
    Senator Kirk. When you mentioned the KC-46, I instantly 
focus on Scott Air Force Base in Illinois. Very aware of the 
global strike mission and how important it was, the B-2 
deployment was, to our diplomacy in North Korea, and how 
critical that system is to the United States in our ability to 
reach out and touch someone.
    I would just say, I hope, since we have very high level 
people here, to say to my colleague from Colorado that I was a 
very minor part of the U.S. delegation to the Kyoto climate 
change negotiations, where I worked with the OSD representative 
at that negotiation to make sure DOD emissions were not counted 
under the climate change treaty.
    So remember you guys are completely off the hook with 
regard to Kyoto. In the actual treaty text, we put that in. I'm 
just worried we'll return to the old Carter days of the entire 
Army squinting and shivering in buildings that are dim and are 
hot in the summer. And the old Carter days, I remember that 
kind of being way too uncomfortable, because it was probably 
affecting productivity of the office staff, since the 
temperatures were not correct. And we were on a misguided 
effort to actually save energy that probably hurt mission 
accomplishment.
    Mr. Chairman.
    Senator Johnson. Senator Udall.
    Senator Udall. Thank you, Chairman Johnson.
    And thank you, Senator Kirk, for your comments.
    And thank you for your service, and thank you for being 
here today.
    I wanted to just make an initial comment. I agree with 
Chairman Johnson about the Northern Group Housing 
Privatization. I'm concerned for Cannon Air Force Base. And so 
I hope that we can move that along, and I hope you'll keep us 
informed also, because that's very important to Cannon.
    I want to start by asking about the nuclear weapons work 
entrusted to the Air Force. This is one of the most serious and 
important jobs in the Air Force. As long as our Nation has 
nuclear weapons, we need to do everything we can to carry out 
this mission safely.
    There's no room for error with nuclear weapons. I'm 
concerned about the safety of our nuclear stockpile, especially 
after the recent issues at Minot Air Force Base.
    At Kirtland Air Force Base, the Air Force and DOD have 
invested significant resources to strengthen the Nuclear 
Weapons Center (NWC), which is tasked with ensuring safe, 
secure, and reliable nuclear weapons to support the national 
command structure and the Air Force warfighter.
    In addition, I would note that I'm supportive of the 
President's MILCON request for NWC.
    In light of the complex issues surrounding the handling of 
these weapons, does the Air Force intend to continue its 
support for the mission at Kirtland Air Force Base into the 
future? And how does the latest MILCON request for the Air 
Force Nuclear Weapons Center sustainment center support this 
goal?
    General Byers. Senator Udall, thanks so much for your great 
support of your bases in New Mexico.
    And just real quick, I just returned from New Mexico.
    Senator Udall. Great.
    General Byers. And your CE squadrons at Cannon and at 
Holloman Air Force Base were the Air Force's best for small and 
large units. So congratulations, you have the two top CE 
squadrons in the country.
    Senator Udall. Thank you for that.
    General Byers. We continue to support the nuclear war 
systems. You know of phase 1 that started in fiscal year 2012. 
The phase 2 is now in the fiscal year 2014 program and is fully 
supported to support that second phase, an important mission 
there, with also the nuclear systems wing integration. And so 
those are all on target.
    That will support the consolidation of the people. It will 
support the important work that they do there to the oversight 
of the nuclear weapons programs.
    Senator Udall. Thank you.
    I want to thank you for your efforts regarding the F-16 
transition at Holloman Air Force Base. This is an issue that's 
not only important to the Alamogordo community but also for our 
national security.
    The access to unencumbered airspace is second to none in 
New Mexico, and I believe that airmen and airwomen training to 
fly F-16s in New Mexico will benefit greatly from the move to 
Holloman.
    My understanding is that the Air Force is committed to 
making this happen. I have no reason to think otherwise. But is 
the Air Force still committed to this transition?
    Ms. Ferguson. The Air Force is still committed to the 
transition to relocate two F-16 squadrons from Luke Air Force 
Base to Holloman Air Force Base. Those bed downs are on track 
right now still. The first squadron of 28 aircraft is 
anticipated to move in the second quarter of 2014, and the 
second squadron is anticipated to move in the second quarter of 
fiscal year 2015. The first one will arrive shortly after the 
F-22s depart.
    General Byers. And if I may add, there are two MILCON 
projects in the fiscal year 2014 program that support those 
moves, and those are on target. That's the aircraft covered 
wash rack and pad, and also a BAK aircraft arresting system 
that will be at Fort Bliss to support the emergency airfields.
    Senator Udall. Okay, one final, quick question here. It has 
to do with, as you know, we have two very capable Air Force 
special operations, both the 58th Special Operations Wing and 
the 27th Wing at Cannon in New Mexico. And I'm concerned about 
the force protection at the Cannon base.
    The Air Force has invested a tremendous amount of MILCON to 
expand the capabilities and the infrastructure at the base, but 
there are still some issues regarding the safety of the 
perimeter, specifically near County Road R, which runs on the 
western boundary of the base.
    What are the Air Force's plans to address the force 
protection issues, to protect runways and ongoing military 
construction at the base? And what more can be done to work 
with Curry County and the State of New Mexico to find a 
workable solution?
    General Byers. Senator Udall, we take force protection very 
seriously, as you know. And we've worked real close with AFSOC 
on the requirements to protect that installation, that special 
mission that they have. And using the concept of an outside-in, 
the perimeter is very important.
    Currently, in the fiscal year 2014 Future Years Defense 
Plan slated for fiscal year 2016 is a major gate project to 
take care of the most serious concern. All the other 
vulnerabilities have been addressed.
    In a small way, this would be one that would have to be a 
MILCON correction. And we have that planned for fiscal year 
2016.
    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Collins. And please make it----
    Senator Collins. Very brief.
    Senator Johnson. We have a series of votes beginning at 
10:30.
    Senator Collins. Thank you very much, Mr. Chairman.
    I am going to submit my questions for the record on the KC-
46A issue, which has been of great concern to me. I've raised 
it at the previous hearing.
    I will just make the comment that, last month, finally the 
Air Force delivered its report regarding the air-refueling 
receiver demand model to the Senate Armed Services Committee. 
And that report confirmed to me that the Air Force had not 
adequately captured the full range of missions that will be 
accomplished by the KC-46A.
    Just one very brief question, Secretary Ferguson. I was 
also surprised that the National Guard is planning to request 
$94 million in next year's budget, fiscal year 2015, for KC-
46A-related construction. The existence of two fully enclosed 
hangars of sufficient size and dimensions accounted for 12 
percent of the scoring criteria in the KC-46A basing process 
for the National Guard-led main operating phase, and the hangar 
requirement is for two hangars.
    My question is, is any of the $94 million planned for 
fiscal year 2015 for new hangar construction?
    Ms. Ferguson. At this point in time, we have not developed 
our fiscal year 2015 budget request yet. In fact, the process 
for selecting the first Air National Guard location, MOB-2, for 
the KC-46 is underway right now. And once that is selected, 
we'll have a better idea of what would be inserted into the 
fiscal year 2015 budget. And we could come back to you with 
that.
    Senator Collins. So is that just a tentative figure?
    Ms. Ferguson. That would just be a tentative figure. I have 
not heard that. We're still working through that process right 
now.
    Senator Collins. It seems inconsistent with the criteria 
that was used, but I will submit the rest of my questions for 
the record in light of the votes. Thank you.
    Senator Johnson. I would like to thank all of our witnesses 
for appearing before the subcommittee today. We look forward to 
working with you later this year.

                     ADDITIONAL COMMITTEE QUESTIONS

    I apologize for the short work we've made of this hearing, 
but I assume that numerous questions will be submitted.
    For the information of the members, questions for the 
record should be submitted by the close of business on May 22.
    [The following questions were at asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Hon. Kathleen I. Ferguson
               Questions Submitted by Senator Tim Johnson
                         current mission needs
    Question. Nearly 80 percent of the fiscal year 2014 military 
construction request is for new mission requirements or combatant 
command initiatives. How does the Air Force plan to address current 
mission military construction needs if it only spends a fraction of its 
military construction dollars on them?
    Answer. With limited funding available and recognizing the need to 
modernize our inventory of aircraft, the Air Force is continuing to 
take risk in infrastructure. A significant portion of the Air Force 
construction account is also being used to support several large 
combatant command projects. This risk to infrastructure could be 
partially mitigated with restoration and modernization funding but that 
funding account is also being stressed. We will closely manage 
available funding to minimize mission degradation of our most critical 
facilities.
    Question. What is the current recap plan for current mission 
military construction? Is 15 to 20 percent of the military construction 
budget the normal ratio of current to new mission funding? Do you 
foresee that ratio remaining about the same over the course of the 
Future Years Defense Plan?
    Answer. The Air Force's fiscal year 2014 budget request is 24-
percent current mission, 76-percent new mission. With limited funding 
available and recognizing the need to modernize our inventory of 
aircraft, the Air Force is continuing to take risk in infrastructure. 
During the decade 2003-2012 Air Force budget requests averaged 57-
percent current mission. We will continue to advocate for current 
mission construction funding and closely manage available funding to 
minimize mission degradation of our most critical facilities.
    Question. The Air Force military construction request includes 
funding for several projects in Europe. Why should Congress invest in 
military construction projects in Europe before seeing the results of 
the European basing study?
    Answer. The MILCON projects requested in fiscal year 2014 are in 
the United Kingdom and include a $22 million Guardian Angel Operations 
Facility at RAF Lakenheath and a $12 million Main Gate Complex at RAF 
Croughton. EUCOM/AFRICOM require an increase of USAFE Guardian Angel 
personnel recovery assets to fully respond to and support simultaneous 
contingency plans and operational requirements. The Main Gate Complex 
project requirement is driven by Joint Staff Integrated Vulnerability 
Assessment write-up, DOD2000.16, UFC 4-022-01, and Operations Order 08-
01. There are no acceptable workarounds.
    The fiscal year 2014 MILCON program was developed recognizing we 
would have a European Infrastructure Consolidation. The Air Force 
determined the nee ed for these projects outweighed the risk of closure 
of either RAF Lakenheath or RAF Croughton. If either of these bases is 
suggested for closure under the European Infrastructure Consolidation 
initiative we would not execute the projects.
                  base realignment and closure (brac)
    Question. Currently, Air Force is embarked on a Total Force 
initiative, while DOD is conducting a European Basing Study. 
Furthermore, DOD is requesting a new BRAC round in 2015. How are all of 
these efforts being coordinated to ensure that they do not conflict 
with each other? For example, what assurance does the Air Force have 
that its total force realignment decisions will mesh with BRAC 
recommendations if another BRAC round is approved?
    Answer. The Air Force strategic basing process provides an 
enterprise-wide repeatable process for decisionmaking to ensure all 
basing actions involving Air Force units and missions support Air Force 
mission requirements and comply with all applicable environmental 
guidance.
    The strategic basing process works in concert with Total Force 
Integration to ensure all levels of decisionmaking are coordinated.
    The Air Force believes the Total Force Integration and on-going 
European Infrastructure Consolidation analysis are complimentary to 
BRAC and the outcomes will inform the BRAC process.
    If another BRAC round is authorized, all military installations 
will be reviewed, and all recommendations will be based on approved, 
published selection criteria. BRAC authorization will also require 
submission of a future force structure plan that incorporates previous 
force realignment decisions that occurred using the strategic basing 
process.
               air force community partnership initiative
    Question. What is the current status of the Air Force Community 
Partnership Initiative, and how does the Air Force see this developing?
    Answer. The Air Force is fully committed to leveraging partnerships 
with communities where it is mutually beneficial. This is being 
accomplished through the use of in-house manpower, leveraging the 
utilization of reservists throughout the United States, contract 
support, and a headquarters Air Force Task Force of subject matter 
experts. We currently have table top exercise processes underway that 
are designed to identify potential partnership at 15 locations. These 
locations are Altus, Beale, Buckley, Ellsworth, Hill, JB Andrews, 
Maxwell, Moody, Nellis, Patrick, Peterson, Robins, Seymour-Johnson, 
Sheppard, and Tinker Air Force Bases.
                          minot air force base
    Question. The fiscal year 2014 Air Force military construction 
request includes a project to construct a new Aircraft Maintenance Unit 
(AMU) facility and alter an existing AMU facility. Both AMUs would 
provide space to consolidate the unit support and command sections for 
the second B-52 squadron at Minot Air Force Base. The fiscal year 2014 
budget also calls for the construction of four munitions storage igloos 
to accommodate the increased weaponry stored at the base with the 
second B-52 squadron.
    Do you anticipate these projects would be affected by 
sequestration?
    Answer. The Air Force has not made any specific project decisions 
in response to potential sequestration. The scope of any sequestration 
cut is not known. If the Air Force receives a sequestration cut we will 
at that time determine what projects will have to be deferred or 
canceled.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
                     hayes military operations area
    Question. The Air Force has long considered the airspace near Great 
Falls--the Hayes Military Operations Area--an important national asset. 
There are few places left in the country with that amount of room to 
operate over land--more than 4.5 million square acres--and a lack of 
civilian over-flights. Concerns have been raised that the pending 
conversion of the Montana Air National Guard from a fighter mission to 
an airlift mission will leave that airspace underutilized and 
ultimately place it at risk.
    In this context can you provide an assurance that this airspace 
will not be underutilized and that the Air Force will keep it in mind 
as it considers future requirements?
    Answer. The U.S. Air Force utilizes a variety of Special Use 
Airspace (SUA) areas, which are delegated for military operations by 
the Federal Aviation Administration (FAA), to separate non-hazardous 
flying activities from civil aviation activities, including the Hayes 
Military Operations Area (MOA). Many Air Force bases have SUA areas 
which are designed to meet their unique training and readiness mission 
requirements. In response to the second part of your question, the 
Hayes MOA does have positive attributes which make it suitable for 
certain Air Force operations.
    As good stewards of SUA, the Air Force must ensure the efficient 
and effective use of airspace granted by the FAA. If any SUA becomes 
underutilized due to base realignment or mission changes, etc., it is 
reviewed, and if determined to be excess to Air Force need, offered to 
the Department of Defense for another Service to assume scheduling 
authority to meet their requirements. If no other Department of Defense 
requirement is found, the SUA must be returned to the FAA for use 
system-wide in the U.S. National Airspace System public domain. There 
has been no determination made at this time regarding potential long-
term usage of the Hayes MOA.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                  u.s. strategic command headquarters
    Question. The Air Force is requesting two hardening projects in 
Guam but has as of today; PACAF is still working on a Pacific 
Resiliency Study.
    Will the PACAF Resiliency Plan be incorporated into an overall 
PACOM resiliency plan? If not, why not?
    Before the study is complete how do we know these two hardening 
projects in Guam will be the top PACAF or PACOM priorities?
    By getting ahead of the resiliency study is this the best use 
scarce funds?
    Answer. Yes, any resiliency plans developed by PACAF will support 
an overall joint resiliency plan endorsed by PACOM. In fact, in 
December 2011, the commanders of both PACAF and PACFLT developed an 
integrated list of resiliency requirements in anticipation of an 
integrated PACOM resiliency plan. The commanders recommended four 
distinct methods of mitigating risk to include: selective hardening, 
redundancy, rapid repair, and dispersal. In many cases, they 
recommended a hybrid solution that incorporates two or more of the 
mitigation measures.
    While the PACOM resiliency study is still on-going (to be complete 
mid-2013), the study assumes that the two hardened hangars on Guam will 
be constructed. All major stakeholders agreed on the importance of 
these two structures since the fiscal year 2012 President's budget 
submittal. In addition, these two hangars ranked within the top 10 on 
PACOM's joint resiliency requirements and both were within the top 5 
for the Air Force. The United States has done virtually no hardening 
for some 30 years. Without selective hardening of key infrastructure, 
our commitment to overall Defense Strategy in the Asia-Pacific theater 
could be called into question by our partners and allies as well as our 
potential adversaries. Furthermore, the study will recommend several 
other methods of mitigating risk to include: improved indications and 
warning, active defense (e.g., THAAD, PAC-3), redundancy to single 
points of failure, enhanced rapid repair capabilities, tactical and 
theater-level dispersal, etc. We do not believe we are getting ahead of 
the resiliency study; rather, we have developed our installation 
investment strategy in concert with the strategy as it has matured over 
the past several years.
         military construction projects at scott air force base
    Question. Ms. Ferguson, Scott Air Force Base's mid-country location 
makes it strategically situated to be a prime location for basing the 
KC-46 tanker. While Scott Air Force Base had significant scoring 
shortfalls for the new initial basing of the new KC-46 tanker, the base 
had several infrastructure-related challenges such as runway strength 
and condition that contributed to this. I appreciate the Air Force's 
past investment at Scott Air Force Base and I hope we can work together 
to identify infrastructure needs that could enhance Scott's candidacy 
for future KC-46 basing rounds.
    Do you have any plans or recommendations concerning operational 
infrastructure that would enhance Scott's ability to compete for future 
basing rounds?
    Answer. On April 20, 2012, the Secretary of the Air Force approved 
KC-46A basing criteria that evaluated 54 Air Force installations' 
ability to support the KC-46A training requirements, available 
infrastructure, environmental concerns and area construction and 
locality costs. Any additional infrastructure upgrades for a possible 
KC-46A mission would have to be part of the Air Force Strategic Basing 
process.
    However, the Air Force is making every attempt to place our most 
urgent MILCON requirements in the Future Years Defense Program (FYDP). 
While there is obviously a need for major construction projects at 
Scott Air Force Base to support Scott Air Force Base's current mission, 
there simply is not enough funding to accommodate all of the Air 
Force's most urgent requirements within the current Air Force budget.
    We will make every effort to consider these projects in a future 
President's budget request if funds are available. We look forward to 
your continued support for military construction projects and other 
critical Air Force priorities through the fiscal year 2014 budget 
cycle.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
                          minot air force base
    Question. The fiscal year 2014 Air Force military construction 
request includes a project to construct a new Aircraft Maintenance Unit 
(AMU) facility and alter an existing AMU facility. Both AMUs would 
provide space to consolidate the unit support and command sections for 
the second B-52 squadron at Minot Air Force Base. The fiscal year 2014 
budget also calls for the construction of four munitions storage igloos 
to accommodate the increased weaponry stored at the base with the 
second B-52 squadron.
    Answer. The second B-52 squadron was activated at Minot Air Force 
Base in 2009.
    Question. How many additional personnel were required to activate 
that squadron?
    Answer. A total of 798 positions were added at Minot Air Force Base 
to activate the additional bomb squadron in order to support 
operations, maintenance and support.
    Question. Where are they working without the upgraded AMU 
facilities in this budget request?
    Answer. They are working in seven geographically separated flight 
line facilities. In one instance, a modular office space was added 
inside to provide working space.
    Question. The fiscal year 2014 Air Force military construction 
request includes a project to construct a new Aircraft Maintenance Unit 
(AMU) facility and alter an existing AMU facility. Both AMUs would 
provide space to consolidate the unit support and command sections for 
the second B-52 squadron at Minot Air Force Base. The fiscal year 2014 
budget also calls for the construction of four munitions storage igloos 
to accommodate the increased weaponry stored at the base with the 
second B-52 squadron.
    How have we been storing weapons for the second B-52 squadron 
without the additional storage igloos?
    Answer. Minot Air Force Base can currently store its War Reserve 
Material (WRM) allocations for both squadrons but is short space to 
store approximately 40 percent of required Aircrew Training Munitions 
levels. The four new igloos will alleviate storage shortfall to permit 
required training and war readiness reserve munitions required to meet 
OPLAN and DOC statements.
    The current work around is staggering munitions deliveries 
throughout year based on the storage space available to sustain weapons 
training.
    Question. There is also a project to replace some old fuel lines at 
Minot Air Force Base between now and 2016. Do you anticipate that would 
have any impact on B-52 operations at Minot over those years?
    Answer. There will be no operational impact. This project replaces 
the line from the bulk fuel tanks to the operating storage tanks of the 
hydrant fuels system. The concept for replacement uses a different 
route for the lines, thus permitting the existing lines to be used 
while the new ones are being installed. There may be a short down time 
while the new lines are tied in, but the operating storage is 
sufficient to accommodate the down time. In the event the tie in takes 
longer than expected, truck refueling from the fuel stand at bulk fuel 
will be used; however, this is highly unlikely.
                           enhanced use lease
    Question. There are no military construction projects planned for 
Grand Forks Air Force Base in the fiscal year 2014 request, but there 
are a number of critical initiatives that concern the installation. 
Enhanced Use Lease--The proposed Enhanced Use Lease (EUL) will bring 
significant investment to Grand Forks Air Force Base and provide 
benefits both to the local community and to the Air Force.
    Can you provide an update on the Air Force's efforts to develop an 
EUL for Grand Forks Air Force Base?
    Answer. The Air Force has received a proposal from Grand Forks 
County (GFC) for the possible lease and development of an Aviation 
Business Park on approximately 217 acres at Grand Forks Air Force Base 
(GRAFB). Negotiations are currently ongoing with the two sides working 
towards agreement on a term sheet which outlines the basic business 
terms of the lease. Concurrently, all necessary environmental work is 
being completed and GFC is working towards securing an initial tenant 
and the necessary financing for the first phase of development. The Air 
Force anticipates notifying Congress in August 2013 with a target date 
of October 2013 for lease signing.
                                 ______
                                 
              Questions Submitted by Senator Mike Johanns
                  u.s. strategic command headquarters
    Question. The fiscal year 2014 budget request includes $136 million 
for Increment 3 of the U.S. Strategic Command headquarters replacement 
facility. I fully support this request and ask my colleagues to do the 
same. Additionally, it has come to my attention that the fiscal year 
2014 request does not adequately address the fit-out or procurement 
funding requirements for the building. These funds were to be used to 
install an Uninterruptible Power Source (UPS) for the facility. I am 
told that if these funds are not executed in fiscal year 2014, the cost 
to the Government could increase by 79 percent and could delay the 
occupancy of the facility, at a minimum, by 7 months.
    Could you detail this funding issue and the impacts that it could 
have on the construction of the new STRATCOM headquarters building?
    Answer. This project has a 4-year construction duration, with 
specific portions of the project completed and turned over to the 
Federal Government prior to final contract completion. The first 
contractual Early Beneficial Occupancy Date (EBOD 1) in January 2016 
requires installation of a centralized UPS system to protect equipment 
and circuits from damage by power surges or loss. The UPS provides 
back-up and conditioned power for both military construction and 
information technology contractors to install command and control 
systems, technical control facility, telecommunications rooms and data 
centers.
    The $136 million in the fiscal year 2014 budget provides needed 
funding for the military construction portion of the facility and is 
needed in full to meet contractual placement schedules.
    Equipment fit-out is a separate fiscal year 2014 requirement to be 
funded from other equipment (3080) in the defense appropriations bill. 
In May 2012, Congress marked USSTRATCOM's fiscal year 2013 $25 million 
fit-out procurement request as ``early-to-need'' and zeroed it out. 
This was done prior to contract award in August 2012. To address this, 
the Air Force is maintaining an fiscal year 2014 unfunded requirement 
for $21.3 million to procure the UPS, which will continue to be 
evaluated by the Air Force Corporate Structure for funding. The least 
preferred alternative is to pursue funding in the Air Force Fiscal Year 
2015 Program Objective Memorandum, for the reasons outlined below. 
Additionally, there is $502 million in remaining requirements for 
equipment and furnishings currently programmed in the fiscal years 
2014-2018 Future Years Defense Program.
    Procurement, installation and testing of UPS equipment will take a 
minimum of 15 months once a contract is awarded. To meet the EBOD 1 
date, award is required by June 2014. Further delay of funding to 
fiscal year 2015 would slip the award to May 2015, with installation 
occurring after much of the interior construction is complete, 
requiring the dismantlement/rebuilding of equipment racks, risking 
damaging completed interiors, and incurring significantly higher costs. 
This is estimated to cause an overall schedule slip of 10 months for 
EBOD 1, from January 2016 to November 2016, and result in up to 79 
percent increased costs to the Federal Government.
                                 ______
                                 
         Questions Submitted to Brigadier General James Witham
               Questions Submitted by Senator John Hoeven
                      hector international airport
    Question. There is a $4.8 million military construction request for 
intelligence targeting facilities located at Hector International 
Airport in Fargo, North Dakota. It appears these funds are projected 
for the fiscal year 2016 budget in support of the new Cyber Targeting 
Group mission coming there.
    Can you provide detail on what facilities are planned for that new 
mission?
    Answer. The Site Activation Task Force is scheduled for the week of 
July 9, 2013, at which time specific details on what facilities and how 
they are utilized will be determined. In general, it is anticipated 
that existing under-utilized facilities will need to be converted and 
may require the use of military construction funds.

                         CONCLUSION OF HEARINGS

    Senator Johnson. This hearing is recessed.
    [Whereupon, at 10:38 a.m., Wednesday, May 15, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
